<html>
<title> - ISIS AND THE THREAT FROM FOREIGN FIGHTERS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






               ISIS AND THE THREAT FROM FOREIGN FIGHTERS

=======================================================================

                             JOINT HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                AND THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 2, 2014

                               __________

                           Serial No. 113-232

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                                 
                                 
                           U.S. GOVERNMENT PRINTING OFFICE 

91-661 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                               
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
DOUG COLLINS, Georgia                GRACE MENG, New York
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
TED S. YOHO, Florida                 TULSI GABBARD, Hawaii
SEAN DUFFY, Wisconsin                JOAQUIN CASTRO, Texas
CURT CLAWSON, Florida

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           BRAD SHERMAN, California
ADAM KINZINGER, Illinois             ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   JOAQUIN CASTRO, Texas
TOM COTTON, Arkansas                 JUAN VARGAS, California
PAUL COOK, California                BRADLEY S. SCHNEIDER, Illinois
SCOTT PERRY, Pennsylvania            JOSEPH P. KENNEDY III, 
TED S. YOHO, Florida                     Massachusetts

                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
DOUG COLLINS, Georgia                BRADLEY S. SCHNEIDER, Illinois
MARK MEADOWS, North Carolina         JOSEPH P. KENNEDY III, 
TED S. YOHO, Florida                     Massachusetts
SEAN DUFFY, Wisconsin                GRACE MENG, New York
CURT CLAWSON, Florida                LOIS FRANKEL, Florida













                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Robert Bradtke, Senior Advisor for Partner 
  Engagement on Syria Foreign Fighters, U.S. Department of State.    11
Mr. Tom Warrick, Deputy Assistant Secretary for Counterterrorism 
  Policy, U.S. Department of Homeland Security...................    19

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Robert Bradtke: Prepared statement.................    14
Mr. Tom Warrick: Prepared statement..............................    21

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    64

 
               ISIS AND THE THREAT FROM FOREIGN FIGHTERS

                              ----------                              


                       TUESDAY, DECEMBER 2, 2014

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                                  and

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittees met, pursuant to notice, at 10:08 a.m. in 
room 2172, Rayburn House Office Building, Hon. Ted Poe 
(chairman of the Subcommittee on Terrorism, Nonproliferation, 
and Trade) presiding.
    Mr. Poe. The subcommittees will come to order. Without 
objection, all members may have 5 days to submit statements, 
questions and extraneous materials for the record subject to 
the length limitation in the rules.
    Whether it is ISIS, or al-Nusra, or Khorasan, there are 
thousands of jihadists in Iraq and Syria threatening global 
security. In Syria, the influx of foreign fighters far 
surpasses anything we have even seen in Afghanistan. The scale 
of this mass migration is unprecedented and it results in 
deadly attacks.
    More foreign fighters have flocked to Syria and Iraq to 
fight for radical Islamic groups like ISIS in the last 2 years 
than fought in Iraq and Afghanistan in the last 12 years.
    We have a map, I hope we can put that up on the screen, 
that shows the areas that these fighters have come from. They 
have come from all over the world. According to estimates, 
around 15,000 jihadists from over 80 countries have traveled to 
Syria to fight. Two thousand of these killers are from Western 
countries, including the United States and the EU; 500 are from 
the U.K., 700 from France, 400 from Germany, and over 100 from 
America. All of these Western passport holders can travel 
freely in Europe and even to the United States once they have 
finished their tour of duty in Syria.
    None of this is hypothetical. We have seen returning 
jihadists go on murderous rampages before. In May, a returning 
French jihadists from Syria killed three people during a 
shooting spree at a Jewish museum in Brussels. In October, a 
wannabe jihadist who traveled to Syria killed a Canadian 
soldier. Seven American wannabe jihadists were arrested in the 
last 15 months trying to travel to Syria to join ISIS.
    The senior Obama administration official in September said 
that some Americans who have fought with ISIS in Syria have 
returned to the United States. One known example is the case of 
Eric Harroun. Harroun actually fought with al-Nusra in Syria on 
an RPG team. On March 27, 2013, he flew to Dulles International 
Airport where he was taken into custody by the FBI. He was 
brought up on charges for conspiracy to provide material 
support to a foreign terrorist organization. He pled guilty of 
lesser charges and was released in September of that same year. 
Harroun died of a drug overdose in 2014. He isn't the only 
American we need to be concerned about.
    European jihadists are just as much a threat to U.S. 
security since they travel freely to the United States under 
the Visa Waiver Program. I doubt that U.S. and European 
intelligence services know who every one of these individuals 
may be.
    Just as a side note, the DOD and the FBI were both invited 
to be here today to testify at this hearing and they would not 
come.
    Some say these individuals will slip through the cracks. 
Even more concerning is this administration does not seem to 
have a whole government approach to combat ISIS' global 
recruitment program. The network is global, sophisticated, and 
effective. ISIS uses its global network to recruit, fundraise, 
and smuggle fighters into and out of Syria. This is a much more 
sophisticated network than anything we know of from core al-
Qaeda operatives out of Pakistan and Afghanistan.
    The best way to reduce the threat that these foreign 
fighters pose is to identify how the ISIS recruitment network 
works and to develop a global strategy to destroy it. We need 
to understand what countries these fighters are coming from, 
but also how they are getting into Syria once they leave their 
home country, the main countries being used by foreign fighters 
to get into Syria, and what kind of political pressure are we 
using on these countries to go after these networks? We are not 
sure what that is. That is part of the purpose of this hearing 
today.
    Complicating issues further, there are a number of Gulf 
countries who are either unwilling or unable to crack down on 
jihadists trying to get into Syria. Many of these countries act 
as the hub for foreign fighters. We need to do more to enlist 
the cooperation of these Middle Eastern countries to tackle the 
threat, but we can't do this without a comprehensive plan.
    We also need to combat ISIS' online recruitment network. 
Social media is crucial to the ISIS network of recruiting. They 
have a whole media center dedicated to producing high-quality 
propaganda videos, Tweets and the like. This is how their 
recruitment works: After initial vetting by an ISIS recruiter, 
travel logistics are finalized. Turkey is the most common-used 
route and recruiters have extensive contacts on both sides of 
the Turkey-Syrian border to bring fighters in and out of Syria. 
So-called religious and physical training begins followed by 
testing the foreign fighters with small tasks. After that, 
recruits are given their marching orders to go and fight. They 
are paid, they have been given weapons. This is a well-oiled 
machine and very organized. ISIS is only going to get better, 
more efficient, and more deadly at this and it will turn more 
attention to attacks on the West in years to come.
    I look forward to hearing from our witnesses this morning. 
I will now turn to the ranking member, Mr. Sherman from 
California, for his 5-minute opening comments.
    Mr. Sherman. ISIS is evil and they found ways to convince 
Americans that they are more evil than other forces in the 
Middle East. But the fact is that the enemies of ISIS are at 
least nearly as evil, and I think demonstrably more dangerous 
to us in the West than is ISIS.
    In destroying ISIS, not only is it impossible without huge 
American casualties--impossible in the present decade--but begs 
the question, what will flourish in the territory, both the 
cyber territory, the ideological territory, and the physical 
territory that ISIS now occupies.
    ISIS' enemies include the Shiite axis of Hezbollah, Assad, 
the Shiite militias of Iraq under Iranian guidance, and, of 
course, Iran itself. Those enemies also include al-Qaeda, and 
of course, its fully-authorized branch the al-Nusra Front.
    There is talk that ISIS might be able, maybe, to carry on 
an operation outside the Middle East. Compare that to its 
enemies. In 1983, we saw Americans die by the hundreds in 
Beirut. In the 1990s, we saw attacks in South America from 
Hezbollah and Iran, and there was the attempt by Iran to 
assassinate the Saudi Ambassador recently right here in 
Washington, DC.
    No one should doubt that the Iranians, the Syrian 
Government, and Hezbollah have a capacity to get their agents 
into Western countries and the United States. After all, there 
is an Iranian Embassy just a couple hundred miles north of 
where we sit at the United Nations.
    As to al-Qaeda, their capacity to carry out attacks in the 
West was demonstrated on September 11th. And the Khorasan 
group, which we hit on September 22 was operating in Syria as 
part of and in alliance with the al-Nusra Front.
    So just as important as destroying ISIS is asking: What 
would occupy its cyber, ideological, and physical space? As to 
Turkey, we have to urge Turkey to seal its borders and to 
prevent fighters from joining ISIS, but the Turks seem much 
more focused on what they see as their enemies, Assad and many 
of the Kurdish fighters.
    They have not allowed us to use Incirlik to attack ISIS 
unless we alter our policy and decide to use our air force 
against Assad. Whether we should do that depends in part as to 
who would take over Syria if Assad was destroyed. Right now, 
al-Nusra and ISIS seem to be first and second in line, perhaps 
not in that order.
    In addition, the President does not have the legal 
authority to wage war for more than 60 days under the War 
Powers Act on the Assad regime. He claims that authority with 
some support, the authority, that is to say, to go after ISIS 
on the theory that it is a splinter group of al-Qaeda, and in 
2001, this Congress authorized every effort against al-Qaeda.
    We must urge countries to seal borders and to deter their 
citizens from joining ISIS and other extremist forces in Syria 
and Iraq. We must dispel this notion that the people can go 
fight, and then return and be monitored. If a foreign fighter 
returns, they must be imprisoned. And U.N. Security Council 
Resolution 2178 passed in September requires countries to pass 
laws, as we have had for decades, that would put such terrorist 
operatives in jail. That would do a lot, making it clear, 
especially from European countries, that returning fighters are 
not going to be monitored, they are going to be imprisoned. It 
is not only consistent with the United Nations Security Council 
Resolution, but will act to deter foreign fighters.
    Finally, I will be using these hearings to once again urge 
the State Department to hire people for their expertise in 
Islamic theology and law, not because a Fatwa issued by the 
State Department would have credibility, but because the State 
Department's efforts to persuade legal scholars--Islamic legal 
scholars around the world--consists of going to them and 
saying, these guys were terrible, you think of the legal 
authority, you think of the legal arguments that will allow you 
to come out against them.
    No one would go to an American jurist and say, my adversary 
is evil; you, sir, come up with the doctrine. Instead, you hire 
lawyers who know the law and you come to plead not only the 
justice of the case, but the legality of your argument. And 
when we get recognized legal scholars in the Islamic world on 
our side, that will be helpful, but we haven't hired a single 
lawyer and we are going to courts around the world. I yield 
back.
    Mr. Poe. I now recognize the chairman of the Subcommittee 
on the Middle East and North Africa, Ms. Ileana Ros-Lehtinen 
from Florida, for her opening statement.
    Ms. Ros-Lehtinen. Thank you so much, Judge Poe. Since the 
beginning of this Congress, our two subcommittees have held 
joint hearing to explore the conflict in Syria, the crisis in 
Iraq, and the rise of ISIL, and we have yet to see a coherent 
or comprehensive strategy to address these issues from the 
administration.
    For more than 3 years now, the administration has failed to 
address the Syria crisis head on, and instead has let the 
country become a safe haven for more and more terrorists who 
seek to harm the United States and our interests.
    We on this committee have continued to sound the alarm and 
have been pleading with the administration to be more proactive 
in Syria to avoid a spillover affect that can further 
destabilize the region. Unfortunately, our calls have gone 
unanswered. Even former officials from the same administration 
have been public about their own criticism of the President's 
Syria strategy or lack thereof.
    The longer the administration delays and fumbles about, the 
greater the danger for both U.S. national security interests 
and those of our allies. We must have a comprehensive strategy 
that not only removes Assad from power, but addresses the Iran 
issue and links Iraq, Syria and ISIL together. All of this does 
not give me much confidence that our officials have a 
satisfactory plan in place to address the foreign fighter 
threat.
    While it is important that we refrain from hyperbolic 
rhetoric and overreaction when talking about ISIL and foreign 
fighters, it is equally important that we not downplay the 
threat. The CIA estimated in September that ISIL now has 
between 20,000 and 31,500 total fighters in Syria and Iraq, and 
at least 15,000 of whom are foreign fighters from 80 countries.
    U.S. intelligence officials have acknowledged the 
difficulty in providing an exact number saying that, due to 
``the changing dynamics of the battle field, new recruits, and 
other factors, it is difficult to assess the precise number of 
individuals.''
    What we do know is that the majority of foreign fighters 
are from nations in the Middle East. However, there is a 
significant number, over 2,700 according to DHS testimony, that 
come from western countries, including over 100 Americans. And 
as we know, many of these individuals do not need a visa to 
enter the United States.
    The reach of this terrorist organization has extended 
beyond our initial assessment as we saw in the tragic killing 
of four people at the Jewish Museum of Belgium, in Brussels, or 
the attack in Melbourne where, days after ISIL called for 
attacks against Australians, an 18-year-old stabbed officers at 
a police station in the hand, body, and head after offering to 
help the officials with their investigation.
    The possibility of homegrown or lone wolf attacks like 
these inspired by ISIL should be of grave concern to law 
enforcement officials everywhere. The European Union, which has 
been soft on terrorism in the past, must take heed of these 
examples and tighten their terrorism laws, as well as increase 
their cooperation with us.
    We must also remember that the process of foreign fighters 
joining ISIL and the group's radicalization of Westerners are 
still in the beginning stages. It took years before we saw the 
results of individuals joining Osama Bin Laden and al-Qaeda in 
Afghanistan, and the complete threat posed by ISIL foreign 
fighters remains to be seen.
    Yes, it is true that the problem of foreigners joining a 
terrorist group is not a new problem, this should not allow us, 
however, to be complacent. The sheer number of foreign fighters 
joining ISIL is cause for alarm, and any attempt to downplay 
the threat is only misguided and dangerous. We must look at all 
options available to us to prevent fighters traveling to Syria 
and Iraq from returning to the United States and the 
recruitment in the first place.
    Whether that is tightening travel restrictions on those who 
try to enter certain countries or come back to the U.S., 
increasing penalties for providing support to terrorist groups, 
enhancing cooperation with our allies, especially visa waiver 
countries that may be vulnerable to tracking these dangerous 
individuals, all of those are things that we must do.
    We have to have a realistic debate about the measures 
necessary to take on foreign fighters, to monitor them here and 
overseas, to arrest and detain them before and after an attack, 
all while ensuring that our civil liberties are protected. 
Rhetoric that attempts to whitewash the threat or pretend that 
those who raise concerns are fear mongers does us all a 
disservice.
    I look forward, Mr. Chairman, to hearing from our witnesses 
about what exactly the administration is doing to tackle this 
problem in both the short and long term, as well as to 
encourage a debate we all need to be having. Thank you, sir.
    Mr. Poe. I now turn to the ranking member of the 
Subcommittee on the Middle East and North Africa, Mr. Ted 
Deutch from Florida for his opening statement.
    Mr. Deutch. Thank you, Mr. Chairman. Thank you, Chair Ros-
Lehtinen, for holding today's hearing.
    The issue of foreign fighters adjoining ISIS and other 
extremist groups in Syria and Iraq pose a grave threat to 
global security and deserves this Congress' full attention.
    I want to thank our esteemed witnesses for their many years 
of service to this country and for appearing here today.
    The rise of ISIS has been truly unprecedented. In roughly 2 
years, ISIS broke with al-Qaeda, transformed into a well-
organized and well-funded terrorist group wreaking havoc across 
Iraq and Syria. But ISIS has not just focused its efforts on 
the battlefield; it has developed a propaganda machine that is 
spreading its message to nearly every corner of the earth. ISIS 
produces videos, pamphlets, and has generated a disturbing 
amount of attention via social media.
    Whereas terrorist organizations have long recruited members 
locally, setting up cells in villages, in towns, with Twitter 
and YouTube ISIS has a direct line across the world. In a 
grotesque display of disregard for human life, ISIS has used 
brutal beheadings of Americans as a propaganda tool. Whether 
enticed by the idea of an Islamic caliphate, claiming to be 
agitated by the policies of the West, or simply looking for 
steady income, young men and women from the Middle East, North 
Africa, Europe and beyond, have signed up to join the fight in 
Syria. Estimates now put the number of foreign fighters at over 
16,000.
    Three years ago, we were first alarmed by reports of 
fighters coming into Syria from other countries in the region, 
mainly from Saudi Arabia and North Africa. We should be 
particularly concerned about the alarming number of fighters 
coming from North Africa.
    The chaos that followed the revolution in Tunisia and Libya 
have yielded two very different results. Tunisia has proceeded 
with a dramatic transition, struggling at times, but eventually 
presenting a constitution, elections and a new government.
    Libya has been overrun by competing militias, unable to 
form a strong central government or security force, it is on 
the verge of becoming a failed state. However, Tunisia's young, 
mostly educated population has struggled with unemployment, and 
Tunisia does not have Libya's oil resources to keep the country 
afloat.
    So despite Tunisia's success and post-Arab Spring 
transition, the country with the largest number of foreign 
fighters in Syria and Iraq is now Tunisia. The recent 
Washington Post article examined the factors contributing to 
the rise of young Tunisian men joining jihadist groups. 
Following years of religious repression by the Ben Ali 
government, the revolution allowed Tunisians more religious 
freedom than ever before. As the article reported, the modern 
Islamist-led government elected after the revolution granted 
new religious freedoms after a half century of harshly enforced 
secularism when the state banned women's veils and almost other 
displays of piety, and jailed thousands of people suspected of 
holding Islamic beliefs.
    Unfortunately, that freedom was exploited by extremists who 
want to attack inside Tunisia and begin recruiting in mosques 
and online. The new government has struggled to maintain a 
balance between security and religious freedom. I raise the 
issue of Tunisia to highlight the attraction of jihad for many 
years, even in what would traditionally be considered moderate 
countries.
    In addition, Africa's proximity and long-standing ties to 
Europe provide easy transit to the continent and the porous 
borders in the Sahel countries give radicalized fighters 
returning home many opportunities to exploit already 
destabilized populations.
    Elsewhere in the Middle East, smaller extremist offshoots 
are now aligning themselves with ISIS. Terrorists self-claiming 
allegiance to ISIS have launched multiple attacks on Egyptian 
security forces in the Sinai. Shiite populations in Saudi 
Arabia have been attacked by ISIS-aligned groups. There are 
over 500 foreign fighters from Lebanon, a country already 
suffering enormous affects from the Syrian conflict.
    Our strategy to combat ISIS can't just focus on the 
battlefield. We must counter ISIS before it grabs hold of youth 
in Tunisia, and in France, and in Australia, and even here at 
home. Governments and religious leaders must take initiatives 
to speak loudly to the Muslim world, about ISIS' perverted 
brand of religion.
    On his return from a visit to Turkey last week, Pope 
Francis encouraged Muslim leaders to issue global condemnations 
of terrorism. He told President Erdogan that all Islamic 
religious, academic, and political leaders should speak out 
clearly and condemn this terrorism and violence, because doing 
so would help the Muslim people.
    The U.S. and our partners should also encourage training 
for Imams. The mosque should not be a breeding ground for 
terrorism.
    The State Department is launching efforts specifically 
aimed at countering the spread of extremism on social media. 
And Ambassador Bradtke, I hope you will discuss in greater 
detail the work of the Center for Strategic Counterterrorism 
Communication.
    We must continue to utilize our foreign aid to foster 
programs that counter violent extremism in schools and among 
other vulnerable populations. This is a global threat. It 
warrants a global response. No country is immune to the threat 
of terrorism. And even as the United States leads over 60 
nations in the fight against ISIS, we will always be the face 
of this coalition, and we must remain vigilant about the threat 
of radicalization or of lone wolf attacks--similar to the 
recent attacks in Canada--here within our border.
    Again, I want to thank both of our witnesses for appearing 
here today. I look forward to a productive discussion on this 
incredibly challenging effort to counter radicalization, stem 
the flow of foreign fighters in and out of Syria, and prevent 
future threats to the United States and our allies.
    I yield back.
    Mr. Poe. I thank the gentleman. The Chair will now 
recognize other members for 1-minute opening statements. The 
Chair recognizes the gentleman from South Carolina, Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. On Sunday, both the 
FBI and the Department of Homeland Security issued warnings to 
American military personnel within the United States regarding 
possible threats from ISIL. Sadly, this comes after Homeland 
Security Secretary Jeh Johnson incorrectly, on September 14th, 
announced: ``At present, we have no credible information that 
ISIS is planning to attack the homeland of the United States.''
    He said this in New York City before the Council on Foreign 
Relations. This incorrect statement by Secretary Johnson 
preceded his unconstitutional review of illegal aliens. As a 
member of this committee, as well as chairman of the Armed 
Services Subcommittee on Military Personnel, I am grateful to 
promote the wellbeing of military members and their families 
both at home and abroad.
    National radio talk show host Kim Komando, today in her 
program during her digital minute worldwide, restated the FBI 
and DHS warnings of ISIS threats here in America to military 
families. I look forward to the hearing today on how we can 
protect American families from the grotesque threat of persons 
who seek to conduct mass murder of American families in our 
country. Thank you.
    Mr. Poe. The Chair recognizes the gentleman from Virginia, 
Mr. Connolly, for 1 minute.
    Mr. Connolly. Thank you, Mr. Chairman. I would hope that we 
guard against facile answers about Syria. Some of the 
President's loudest critics, of course, just couldn't quite 
bring themselves to support his request to retaliate in Syria 
against the use of chemical weapons. And had the President 
heeded their advice 1\1/2\ years, 2 years ago, ISIL today would 
be better equipped and better trained, because it drew from the 
very insurgence the President's critics were urging us to arm 
and train.
    I think there are three questions in today's hearing. What 
motivates these men and women, especially men, to join this 
barbaric movement? It is a very troubling question for the west 
and for Islam itself.
    Secondly, how are they recruited? Widely reported accounts 
of the use of social media, very sophisticated, what is its 
appeal? Do we understand it?
    Finally, what are our options? It seems to me option number 
1, priority number 1 is to prevent them from getting to Syria, 
because once they get to Syria, we have a whole different set 
of challenges that require a whole different set of answers. So 
I am looking forward to exploring those questions in today's 
hearing.
    Thank you, Mr. Chairman.
    Mr. Poe. I thank the gentleman.
    The Chair recognizes the gentleman from California, Mr. 
Cook for 1 minute.
    Mr. Cook. Thank you, Mr. Chairman. You know, it is a sad 
commentary on what is going on in the world right now. Just 
when you think you put down one terrorist group, there is 
another one that arises from the ashes. And it is something, I 
think, that underscores the fact that we must stay ever 
vigilant. And quite frankly, we have to have a military that 
doesn't have its budget cut to the bone, and is what is called 
a C-1 readiness, because you would never know what is going to 
happen tomorrow.
    I have been on this planet a long time, it is probably--
Ted, I saw that smirk in your face--it is probably--in my 
opinion, the world is probably the most dangerous it has ever 
been since I have been involved in these things. I have been in 
combat, I have been at war. And now, you strive to go forward 
and make the world safe, not only for your country, but for 
your kids and your grandchildren. So thank you for having this 
hearing.
    I think this is something we cannot fall asleep on. And as 
I said earlier, we have got to be ever vigilant, and we have 
got to find out what is going on, and I appreciate our folks 
joining us to give us an update.
    Thank you very much, Mr. Chairman.
    Mr. Poe. The Chair recognizes the gentleman from New York, 
Mr. Higgins, for an opening statement.
    Mr. Higgins. Thank you, Mr. Chairman, for holding this 
hearing. The Islamic State's rapid conquest of a territory 
covering large portions of Syria and Iraq is, in part, going to 
the prolific recruitment of foreign fighters who now number an 
estimated 16,000, nearly half of the Islamic State's fighting 
force.
    Consequently, the integral part of the strategy to degrade 
and destroy ISIS must be an effective plan to stem the flow of 
foreign fighters who not only add to the Islamic State's 
fighting strength, but to also represent a serious terror 
threat when they return to their countries of origin.
    Of greatest concern are the roughly 2,000 foreign fighters 
originating in western countries, many of which would not need 
visas to enter the United States or Europe. Until it can be 
properly addressed, the Islamic State's proficient use of 
social media and other mediums to continue to facilitate the 
recruitment of self radicalization of these individuals, 
countering these threats will require constant vigilance and 
enhanced coordination with our allies. I look forward to 
today's discussion with our witnesses and I yield back.
    Mr. Poe. The Chair recognizes the gentleman from Illinois, 
Mr. Kinzinger, for 1 minute.
    Mr. Kinzinger. Thank you, Mr. Chairman. And to both 
committees on which I serve, thanks for holding this hearing. 
And to our witnesses, thank you for being here.
    We are bombing ISIS, that is good, I wish we had started 
that back in January when there were only a few thousand of 
them. Today we are playing a lot of catch-up. I just recently 
got back from Iraq, I guess, probably 2 months ago now, 1\1/2\ 
months. When I left in '09, as a pilot in the military, the war 
was won, and when I went back, just a few months ago, it was 
very devastating to see.
    I hope that we begin to hear from this administration a 
strategy for Syria. I echo what a lot of people have said. Two 
hundred thousand dead Syrians today, at least many of which are 
women and children by the evil dictatorship of Bashar al-Assad, 
who by the way is no protector of Christianity. He is an evil, 
bad person, and the incubator of ISIS.
    The reason this rebellion exists, the reason people would 
even be attracted is they see ISIS, in some cases, some people 
see them as the best alternative to Assad. So I think it is 
important for us to plus up the FSA and protect them as we 
allow them to clear their own country out of ISIS. Hopefully we 
will begin to hear that from this administration. It has been a 
few years, maybe we will catch some good news here soon. I 
yield back.
    Mr. Poe. The Chair recognizes the gentleman from Rhode 
Island, Mr. Cicilline for his opening statement.
    Mr. Cicilline. Thank you, Chairman Ros-Lehtinen, Chairman 
Poe, and Ranking Members Deutch and Sherman for holding today's 
hearing on this very important issue. The continuing threat 
that ISIL poses to international stability is a serious concern 
of the United States and our allies.
    Addressing that threat with the comprehensive and carefully 
developed and thoughtful strategy must be a top priority of 
U.S. foreign policy. It is our responsibility to develop a 
response to ISIL's insurgency in Iraq and Syria that ensures 
that all options and their consequences are carefully 
considered. Even as the administration wraps up its response 
with a $5.6 billion request from the President to fund the 
military response in Iraq and Syria, and an operation to train 
and equip rebels in Syria, ISIL continues to attract foreign 
fighters, including fighters from western countries.
    We must do all we can to stop this flow of foreign fighters 
into the region. And as part of this effort, we must examine 
how and why ISIL is successfully engaging foreign fighters and 
how the United States can best restrict ISIL's access to 
additional personnel and battle resources.
    I look forward to hearing the perspective of the witnesses 
that we have assembled on these important issues. With that I 
yield back. And thank you, Mr. Chairman.
    Mr. Poe. The gentleman yields back his time. Are there any 
other members on the majority side?
    The Chair recognizes the gentlelady from Florida, Ms. 
Frankel, for 1 minute.
    Ms. Frankel. Thank you very much for being here. Well, I 
have to confess just a little bit of uneasiness what we should 
be doing with ISIL. So there are two issues that have been 
floating around in my mind that I want to try to articulate.
    Just based on some things I have read and heard and I would 
like to get your reaction as you go forward. One, to pick up 
own my colleagues who talked about al-Assad and hundreds of 
thousands of his own people that he slaughtered. And causing 
many of them thousands to flee into other countries such as 
Turkey, destabilizes those countries.
    I know some who will say that ISIL is the enemy, the 
fiercest fighter against Assad. So one question I would have 
is: How do you balance going after ISIL and then are we helping 
Assad in that regard?
    And then the second issue that I have read and heard people 
say is that our actions, whether it is bombing, air strikes or 
whatever, that we tend to inflame certain folks that will cause 
them to use our actions as a recruitment for ISIL. And I would 
like to hear your reaction to that.
    I yield back, Mr. Poe.
    Mr. Poe. Anyone else wish to make an opening statement? Mr. 
Kennedy for 1 minute.
    Mr. Kennedy. Thank you, Mr. Chairman. And thank you to the 
chair and ranking members of this committee for holding this 
hearing. And to our witnesses thank you for coming to testify 
today, thank you for your service to our country.
    A number of my colleagues have already touched on the 
issues around trying to limit the number of foreign fighters 
coming into Syria and the region, and obviously that is 
critical. The other aspect to this is our ability to monitor 
their movements after they are there and once they return home. 
This puts an awful lot of pressure on our intelligence 
agencies' apparatus to try to make sure we can successfully 
identify those who have traveled, and once they try to leave, 
their routes of entry back into Europe, and potentially back 
into the United States and Canada.
    I would love to hear your own assessment of those 
capabilities, how much confidence we have in our intelligence 
communities in order to conduct those operations, if they need 
additional resources in order to do so, and what road blocks I 
might see in terms of making sure that they are right every 
time, and that somebody doesn't slip through the cracks. Thank 
you.
    Mr. Poe. I thank the gentleman. The Chair recognizes the 
gentleman from Illinois, Mr. Schneider, for 1 minute.
    Mr. Schneider. Thank you. I want to thank the witnesses for 
joining us today and sharing what is being done in a very 
serious concern. It seems that there are three challenges we 
face. One is cutting off the source of these fighters. I would 
be interested in hearing your take, as was mentioned earlier, 
on why so many are coming from five countries. Five countries 
represent half the total, Morocco, Tunisia, Turkey, Jordan, and 
Saudi Arabia.
    What is being done to interdict their progress toward Syria 
and Iraq? How we can prevent them from going and again a 
discussion how we make sure that they are not allowed to come 
back?
    With that, I yield back my time.
    Mr. Poe. The gentleman yields back. Anyone else?
    I will introduce our witnesses and give them time for their 
opening statements. The Honorable Robert Bradtke serves as 
Senior Advisor for Partner Engagement on Syria Foreign Fighters 
at the Department of State. Ambassador Bradtke has more than 40 
years experience in dealing with foreign policy national 
security issues and previously served as our Ambassador to 
Croatia.
    Mr. Thomas Warrick is a Deputy Assistant Secretary for 
Counterterrorism Policy at the U.S. Department of Homeland 
Security. Prior to joining DHS, Mr. Warrick spent several years 
as an international lawyer in private practice before a decade-
long tenure at the Department of State where he focused on the 
Middle East.
    Ambassador Bradtke, we will start with you, you have 5 
minutes.

 STATEMENT OF THE HONORABLE ROBERT BRADTKE, SENIOR ADVISOR FOR 
 PARTNER ENGAGEMENT ON SYRIA FOREIGN FIGHTERS, U.S. DEPARTMENT 
                            OF STATE

    Ambassador Bradtke. Chairman Poe, and Chairman Ros-Lehtinen 
and distinguished members of the subcommittees. Thank you for 
the opportunity to appear today on behalf of the State 
Department at this hearing on ISIS and the threat of foreign 
fighters. I would ask that the full text of my statement be 
included in the record and I will proceed with the summary of 
my statement.
    Mr. Chairman, Madam Chairman, the State Department, along 
with other agencies in the United States Government, is deeply 
concerned about the threat posed by foreign fighters who have 
traveled to Syria and Iraq to participate in the conflicts 
there.
    These fighters, many of whom have joined ISIL, al-Nusra 
Front and other terrorist organizations are a threat to people 
across Syria and Iraq and endanger the stability of the entire 
region. They are also a serious threat to the United States and 
our partners globally. We are concerned that these trained, 
battle-hardened fighters will try to return to their home 
countries or other countries and carry out attacks.
    To respond to this threat, the United States has been 
working closely with our foreign partners for more than 2 
years. And this summer, with a growing threat posed by ISIL, 
the United States has intensified its response by building a 
coalition of more than 60 countries with the goal of degrading 
and defeating ISIL. General John Allen is leading the 
comprehensive strategy across five lines of effort, including 
military support to our partners, disrupting the flow of 
foreign fighters, stopping ISIL's financing and funding, 
addressing humanitarian crises in the region, and exposing 
ISIL's true nature.
    Today I would like to describe for you how we are pursuing 
the foreign fighter line of effort. Not only within the context 
of our ISIL strategy, but also within the broader framework of 
the threat posed by other terrorist organizations and groups, 
such as al-Nusra and the Khorasan group.
    Critical to countering this threat is our engagement with 
our foreign partners. The State Department has been leading a 
whole-of-government outreach effort with foreign partners, an 
effort that is being carried out at all levels across the 
United States Government, including by our intelligence 
agencies, the National Counterterrorism Center, the Department 
of Homeland Security, the Department of Justice, the Department 
of Treasury, the Federal Bureau of Investigation, our military 
commands, as well as our Embassies overseas.
    In my capacity as Senior Advisor for Partner Engagement on 
Syria Foreign Fighters, I have led interagency delegation 
visits to 17 countries, from Europe to Southeast Asia, to 
address this issue with our partners. We and our partners 
recognize that we must use all the tools at our disposal and 
cooperate across a wide range of activity.
    Let me outline for you very briefly seven areas where we 
are engaging with our foreign partners. First is information 
sharing. To prevent and interdict the travel of foreign 
fighters, we are working bilaterally to bolster information 
sharing on known suspected terrorists. And we have called upon 
our partners to make increased use of multilateral arrangements 
for sharing information, specifically Interpol's foreign 
fighter fusion cell.
    Second is law enforcement cooperation. We are using formal 
and informal mechanisms to help police and law enforcement 
authorities in our partner countries bring suspected terrorists 
to trial.
    Third is capacity building. We have worked closely with a 
number of partner countries, including Tunisia, to help them 
strengthen their infrastructure to tackle the foreign fighter 
threat, including stronger counterterrorism legislation and 
improved interagency coordination.
    Fourth is stopping the flow of external finance into 
terrorist organizations. Together with the Treasury Department, 
we have aggressively raised with our partners cases where we 
believe individuals or organizations are raising funds that are 
used to support ISIL or other terrorist groups.
    In recent months, as ISIL is gaining control of more 
territory, we are also engaging with our partners in the 
regions to cut off the funding ISIL derives in the sale of oil 
and isolate it from the international financial system.
    Fifth is counter messaging. We have sought to expose the 
true nature of ISIL and other terrorist groups through the work 
on social media and the Internet at the Center for Strategic 
Counterterrorism Communications.
    Sixth is counter and violent extremism. In my meetings with 
foreign partners, I found that all of us are looking for ways 
to keep individuals from being radicalized. We have been 
sharing our own experience encountering violent extremism 
programs which are carried out in the United States. And we are 
working with partners to build their capacity to engage their 
own communities.
    Seventh and lastly, is border and aviation security. My 
colleague from the Department of Homeland Security will go into 
this area in greater detail.
    Parallel with this bilateral engagement, we have also 
joined with our partners in multilateral 4. In September, 
President Obama presided over a session of the United Nations 
Security Council that approved the United Nations Security 
Council Resolution 2178, a binding resolution that calls upon 
all the countries, among other things, to prevent and suppress 
recruiting, organizing, transporting or equipping of foreign 
terrorist fighters, and to take action to prevent 
radicalization to violence.
    Also in September, at a meeting chaired by Secretary Kerry 
and the Turkish foreign minister, the Global Counterterrorism 
Forum adopted the first ever set of international good 
practices for a more effective response to the foreign 
terrorist fighter phenomenon.
    The inaugural plenary of the GCTF foreign terrorist 
fighters working group chaired by the Netherlands and Morocco 
will take place in Marrakesh, December 15 and 16.
    Mr. Chairman, Madam Chairman, in a speech at West Point, 
President Obama stated, we must shift our counterterrorism 
policy to ``more effectively partner with countries where 
terrorist networks seek a foothold.''
    As I hope I have indicated in this statement, we are 
engaging with our partners and using all the tools at our 
disposal in the effort to deal with the threat posed by foreign 
fighters. A threat unfortunately that will be with us for years 
to come.
    I stand ready to address some of the issues that members 
raised during their statements and answer your questions. Thank 
you.
    [The prepared statement of Ambassador Bradtke follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Mr. Warrick, the Chair recognizes you for your 5-
minute opening statement.

 STATEMENT OF MR. TOM WARRICK, DEPUTY ASSISTANT SECRETARY FOR 
 COUNTERTERRORISM POLICY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Warrick. Thank you, Mr. Chairman, Madam Chairman, 
Ranking Member Sherman, Ranking Member Deutch and members of 
the subcommittees. Thank you for the opportunity to testify 
today about the efforts by Department of Homeland Security to 
protect our Nation from terrorists operating out of Syria and 
Iraq.
    I want to address how DHS helps to protect the homeland 
from foreign fighters who are not from Syria or Iraq, but who 
travel there to participate in the conflict and who may then 
seek to attack the United States, U.S. persons, U.S. interests, 
or U.S. allies.
    For today, let me discuss the Islamic State of Iraq in the 
Levant. I am not going to give this as a full threat briefing 
on ISIL, that would be best in a classified setting. Suffice it 
to say that at present, DHS is unaware of any specific, 
credible threat to the U.S. homeland from ISIL.
    However, as has been noted, ISIL has encouraged its 
supporters to carry out attacks. Such attacks could be 
conducted without specific direction from ISIL with little or 
no warning.
    In addition, terrorist groups have shown interest in 
attacks on U.S. bound airplanes. Terrorists have tried to 
conceal improvised explosive devices in commercial electronics, 
in areas of the body that they think won't be thoroughly 
searched, and in shoes, cosmetics, or liquids in order to try 
to defeat airport security screening.
    Let me turn to seven specific security measures put in 
place in response to the terrorist threat from Syria and Iraq. 
First, aviation security. In early July, Secretary Johnson 
directed the Transportation Security Administration to enhance 
screening at a number of overseas airports with direct flights 
to the United States.
    Subsequently, TSA increased the number of additional 
airports overseas to use enhanced screening methods. DHS will 
work with air carriers and foreign airports to adjust screening 
measures to take account of changes to the threat.
    Second, preclearance. One of Secretary Johnson's 
initiatives is to increase the use of preclearance at overseas 
airports with flights to the United States. Preclearance means 
that before a plane takes off, all passengers and their baggage 
are inspected by U.S. Customs and Border Protection officers, 
using their full legal authorities, and using enhanced aviation 
security approved by TSA.
    We have had preclearance in airports in Canada and the 
Caribbean and we recently expanded it to Ireland and the United 
Arab Emirates. DHS is working with the aviation industry, 
airport authorities and other governments to expand the number 
of U.S. bound flights covered by the security benefits that 
preclearance brings.
    Third, tracking foreign fighters. DHS, along with the FBI, 
the National Counterterrorism Center (NCTC) and the U.S. 
Intelligence community is making greater efforts to track 
foreign fighters who fought in Syria who come from the United 
States or who seek to enter the United States from another 
country.
    Fourth, we are encouraging other governments to collect 
their own information on foreign fighters. This topic is almost 
always item number 1 on DHS's agenda with European governments. 
We are helped by U.N. Security Council Resolution 2178, which 
has provided a new push for European and other governments' 
newest technology like advanced passenger information (API) 
that DHS has long used to detect known and previously unknown 
terrorists by giving us information on terrorist travel.
    Fifth, enhancing the Electronic System for Travel 
Authorization (ESTA) and the Visa Waiver Program (VWP), DHS is 
increasing our ability to track those who enter and leave Syria 
and may later try to travel to the United States without a 
State Department-issued visa under the Visa Waiver Program.
    On November 3, DHS began requiring additional data elements 
that will allow CBP to conduct better screening and better 
security vetting of prospective VWP travelers before they board 
aircraft for the United States. The additional data provides an 
additional layer of security for the VWP.
    Sixth, DHS is continually working to help communities 
identify Homegrown Violent Extremists. Secretary Johnson 
regularly speaks of the challenge posed by the independent 
actor or lone wolf. In many respects, this is the hardest 
terrorist threat to detect and one of concern to DHS.
    We help detect HVEs through outreach and community 
engagement. Secretary Johnson has personally participated in 
community meetings in Chicago, Columbus, Minneapolis, and Los 
Angeles that focus on community concerns and building trust and 
partnership to counter violent extremism.
    Seventh, information sharing within the U.S. Government. 
DHS and our interagency partners evaluate threat data and 
ensure relevant information reaches DHS personnel in the field, 
as well as our state, local and tribal and territorial 
partners. DHS, jointly with the FBI, releases joint 
intelligence bulletins to provide context and background for 
them to use. DHS and our interagency partners work continually 
to share information with each other about possible foreign 
fighters.
    Mr. Chairman, Madam Chairman, since sanction 9/11, DHS and 
our partners in the law enforcement and intelligence community 
have vastly improved the Nation's ability to detect and disrupt 
terrorist plots. We ask for your support as we continue to 
adapt to emerging threats and to improve our ability to keep 
our Nation safe.
    Thank you very much. We obviously are happy to answer your 
questions.
    [The prepared statement of Mr. Warrick follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. I thank both of you. And I recognize myself for 5 
minutes for some questions. The United States is conducting air 
strikes; how have U.S. air strikes affected the flow of foreign 
fighters into Syria? If it has. Ambassador?
    Ambassador Bradtke. It is perhaps a question that might be 
better addressed to some of our colleagues in the intelligence 
community, but my sense--looking at the numbers--is that it is 
hard to say at this point what the impact is. It is relatively 
soon after these strikes are taking place, the numbers that we 
monitor--the numbers that we track--are estimates at best. And 
so, again, I think it is probably early to determine precisely 
what the impact is. It is obviously something again that our 
intelligence community is looking at and it is possible that in 
a classified briefing they might be able to give you their 
assessment. But, again, from my perspective, the numbers can 
vary for a variety of reasons. Sometimes it is because we get 
better information from our partners and that results in an 
increase in the number----
    Mr. Poe. So we don't know if it is effective or not.
    Ambassador Bradtke. I would say that if the issue is ``is 
this effective in reducing the flow of foreign fighters?'' I 
would say, at this point, I would want to see more evidence 
before I would come to a conclusion.
    Mr. Poe. Mr. Warrick, do you have a different answer?
    Mr. Warrick. Well, no. Again, there is an answer to that 
question, but I think it really does need to be delivered in a 
classified setting.
    Mr. Poe. Turkey appears to me to be complicit to some 
extent of allowing foreign fighters to flow from Turkey into 
Syria. Would you weigh in on your opinion of what the 
Government of Turkey, their position is on foreign fighters 
going through Turkey into Syria? Ambassador, you will be first.
    Ambassador Bradtke. Mr. Chairman, Turkey is a very 
important partner of ours in the region. We share a very 
important common interest with them. We have a shared interest 
in seeing a political settlement in Syria that removes Assad; 
we have a shared interest in combating the terrorist 
organizations that are operating Syria and Iraq; we have a 
shared interest in dealing with the humanitarian crisis, and 
also a shared interest in promoting stability in Iraq.
    Mr. Poe. I understand that, Ambassador, but that is not my 
question. My question is, is the Government of Syria--excuse 
me, Turkey, complicit in allowing foreign fighters to go 
through their country and fight for ISIL?
    Ambassador Bradtke. I was trying to explain some of the 
perspective on this problem, sir. The Turks have more than a 
million refugees from Syria inside Turkey. Turks have a 900 
kilometer border with----
    Mr. Poe. I have been to one of those Syrian camps.
    Ambassador Bradtke. There are 37 million tourist arrivals 
in Turkey every year, 37 million. We believe Turkey--we have 
had an extensive dialogue with them on this issue for some 
time--is taking steps to try to deal with the flow of foreign 
fighters.
    The Turks have added a considerable number of names to 
their denied entry list. The Turks are working with us to try 
to cut off the flow of funding that might come from oil sales 
to the foreign terrorist organizations.
    Mr. Poe. Isn't Turkey buying oil from ISIL that eventually 
comes to Turkey from ISIL?
    Ambassador Bradtke. There is considerable traffic that we 
have discussed with Turks across the border. Again the latest 
information is the Turks are taking steps to try to deal with--
--
    Mr. Poe. Are they buying oil from ISIS?
    Ambassador Bradtke. If you are saying, is the Turkish 
Government buying oil from ISIS? No. If you are saying, is 
there smuggling taking place across the border? The answer is 
yes. That is the issue we are trying to deal with is to cut off 
working with the Turks. The other thing I would mention is the 
sharing of information with Turkey. I think we are seeing much 
better information sharing with Turkey with the United States, 
also with our European partners.
    Mr. Poe. So they are not complicit, that is really my 
question. Are they not complicit?
    Ambassador Bradtke. My answer is no, they are not 
complicit.
    Mr. Poe. Social media. We know it is obvious recruitment is 
being done in a very effective manner, it appears through 
social media. There is the argument by some in our law 
enforcement agencies not to shut down social media because that 
is how they track and keep up with terrorist organizations and 
individuals.
    What is your opinion on that? Doing more, or less, or 
leaving it alone? The issue of all of social media, how it is 
effective in tracking and the recruiting of terrorists to join 
ISIL. Should we be proactive to try to shut that network down? 
Legally, of course. Or should we just do what a law enforcement 
says: We want to watch this to see where these guys are going. 
What is your opinion on that, Ambassador? And then get Mr. 
Warrick and then that will be it.
    Ambassador Bradtke. The issue of freedom of the Internet, 
freedom of expression on the Internet is one that goes well 
beyond my responsibilities. We clearly watch very closely the 
use of the Internet by these organizations, we have a dialogue 
with the service providers in cases where the posts that are 
being used, the use of social media counts is, perhaps in our 
view, contrary to the terms of service. So again, this is a 
complex question, this is a complicated question, it goes well 
beyond my responsibilities.
    Certainly any use of the Internet for illegal activities, 
such as fundraising or excitement to violence, is something we 
take strong legal action against. There are gray areas here of 
the use of Internet and social media and the question is how 
one responds to that.
    I think we also believe that if you shut down one site, you 
shut down one account, the chances of that popping back up 
somewhere else are quite high and quite great. So the other 
tool we use is counter messaging ourselves through the Center 
for Strategic Counterterrorism Communications that was 
mentioned earlier. We try to put out counter messaging on 
social media, on the Internet to push back in that way rather 
than simply try to take down the message that they are putting 
out.
    Mr. Poe. Mr. Warrick, I will let you put that in writing 
since we are out of time.
    I am going to have to recognize the ranking member, Mr. 
Sherman, for his 5 minutes.
    Mr. Sherman. Thank you. Let me first clarify a statement I 
made toward the end of my opening statement. The State 
Department has thousands of experts in American law, you don't 
particularly need more. We also have experts in international 
law. Those experts help us persuade Western countries of the 
righteousness of our positions.
    I have been pushing on the State Department for, I think 
the better part of a year, to hire an expert in Islamic law. 
And the response I get is: Well, we hope Islamic jurists will 
issue statements that are helpful to us and we will just call 
them and ask them to come up with something on their own. Or, 
now and then we will call a professor of Islamic law and get 
all the information, we don't need to hire anybody.
    And so I analogized that to what you would do if you were 
trying to persuade an American jurist. Would you contact an 
American jurist and just say, ``My cause is just, please come 
up with the legal theories and support me''? Would you just 
rely on hiring or whatever free advice you could get from a 
professor on the phone? Or would you hire somebody who is an 
expert in American law to try to get an American jurist to 
issue a statement helpful to you?
    It is incredibly important that we get Islamic scholars, 
experts, and jurists to issue rulings adverse to ISIS and 
favorable to the United States. It is about time that the State 
Department hire its first Islamic legal expert to work full-
time on that, maybe a couple. And it is time that at least 
somebody be hired at the State Department, not because they 
went a fancy American school or because they did well on the 
foreign service exam.
    Ambassador, Security Council Resolution 2178 requires U.N. 
members to criminalize those who go to Syria and Iraq to fight 
with the extremists. Have our European allies, particularly 
visa waiver countries, complied with that?
    Ambassador Bradtke. If I may just comment briefly on your 
first point about Islamic lawyers, Islamic scholars.
    Mr. Connolly. Ambassador, please move the mic closer.
    Mr. Sherman. I have limited time, so I will ask you to 
address my question first.
    Ambassador Bradtke. Your question about----
    Mr. Sherman. Yes, Resolution 2178, U.N. Security Council.
    Ambassador Bradtke. We have demarched all of our partners, 
through our Embassies in Europe and elsewhere, to engage with 
these countries on implementing 2178.
    Mr. Sherman. Can you provide, for the record, a list of 
which visa waiver countries are in compliance, which have 
promised to become in compliance, and which are not in 
compliance that have made no very serious promise to us?
    Ambassador Bradtke. We have had 2 months, sir, since the 
resolution was passed. The legislative process is in many 
countries----
    Mr. Sherman. I didn't--I am just asking for a chart.
    Ambassador Bradtke. I will be happy to provide a list of 
countries.
Written Response Received from the Honorable Robert Bradtke to Question 
         Asked During the Hearing by the Honorable Brad Sherman

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

    Mr. Sherman. Their legislative process may be slow, but I 
know your staff will be fast and get a chart for our record and 
then we will identify what those countries. Likewise, if you 
could provide a second chart of Islamic, particularly Arab 
states, particularly the five the gentlemen from Illinois 
identified as the major senders of foreign fighters, whether 
they have passed laws that would criminalize going to Syria or 
Iraq and fighting with al-Nusra or ISIS.
    Ambassador Bradtke. I would be happy to do that.
Written Response Received from the Honorable Robert Bradtke to Question 
         Asked During the Hearing by the Honorable Brad Sherman

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

    Mr. Sherman. But I take it from your answer that we are 
doing everything we can to push our friends in the Arab world 
and Europe----
    Ambassador Bradtke. There are countries that have already 
in place, as we do, laws that prohibit, that criminalize, for 
example.
    Mr. Sherman. Are there any countries that have said, no, we 
will just let these folks come back and we will monitor them?
    Ambassador Bradtke. No country has taken such a cavalier 
attitude toward fighters. There are countries that do believe 
that some of the fighters who come back have been disillusioned 
by their experience, participated in no terrorist activities 
while they were in Syria. And they believe in this case, those 
fighters should been monitored rather than incarcerated. That 
is a decision that those countries make based upon the evidence 
available.
    Mr. Sherman. Is that in compliance with U.N. Resolution 
2178, that view?
    Ambassador Bradtke. I am not a lawyer myself. I would have 
to take a look at that issue, but I think that there are 
different approaches to how you deal with returning fighters, 
particularly ones who have not carried out----
    Mr. Sherman. Look, I don't care if you are just peeling 
potatoes in the mess, if you are part of the ISIS Army, you 
belong in prison until this war against Islamic extremism is 
over. That seems to be what U.N. Security Council Resolution 
2178 said, and I hope you will add to your chart a list of 
those countries that have told us that we do not think that we 
should criminalize those of our citizens and residents who went 
to ISIS, joined the army, but say they didn't actually kill 
anybody.
    Ambassador Bradtke. There is also an issue, sir, being able 
to prove in a court of law this kind of activity.
    Mr. Sherman. That is fine.
    Ambassador Bradtke. Have people on the ground in Syria who 
can come to a courtroom to testify.
    So, again, I think our partners use different tools, 
depending upon what they know about a particular individual in 
the case. That is all I would say.
    Mr. Sherman. I yield back.
    Mr. Poe. The Chair recognizes the gentlelady from Florida 
for 5 minutes.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    ISIL's reach into the United States has been documented. We 
also know that ISIL is known to be tech savvy, as we have 
discussed, has used social media tools to its advantage to help 
recruit foreign fighters to its cause.
    And we have seen ISIL graffiti here in DC, pictures of 
individuals holding the group's symbol in front of U.S. 
landmarks, including the White House.
    And, Mr. Warrick, you testified that DHS is ``unaware of 
any specific credible threat to the U.S. Homeland from ISIL.''
    Following up on what Mr. Wilson said in his opening 
statement, on Sunday, DHS and FBI issued a joint bulletin 
urging our servicemembers to scrub their social media accounts, 
to use caution with their posts.
    Is there a specific threat to our servicemen and -women, 
most of whom are stationed here in America?
    And I will have you hold that thought.
    On funding, ISIL is known to finance its operations from a 
variety of sources, including illicit oil sales, extortion, 
organized crime, selling of ancient artifacts, donations from 
of outside sources. We have seen terrorist groups like 
Hezbollah fund their terror activities through the sale of 
drugs, often from sources in the western hemisphere.
    What are we doing to target ISIL's funding? What kind of 
ISIL collaboration with drug cartels? Is there any evidence of 
that, especially here in our hemisphere? And, if so, what are 
we doing to fight this?
    And, lastly, on our allies. In order to defeat ISIL, we are 
going to need full cooperation with our coalition partners, 
especially those from the Middle East. The ministers of the 
GCC, the Gulf Cooperation Council, have scheduled multiple 
meetings to discuss the ongoing threat of ISIL and possible 
ways to fight this terrorist entity.
    And just yesterday Bahrain foreign ministers announced that 
the Gulf States are setting up a joint military command based 
in Saudi Arabia to not only counter the ISIL threat, but the 
threat from Iran as well.
    So I will ask: In what ways are we working with the Gulf 
nations to fight this radical Islam ideology? And is this joint 
command a signal that they may be willing to put boots on the 
ground in Syria?
    Mr. Warrick. Thank you very much, Madam Chairman.
    Let me start on that, and then, obviously, Ambassador 
Bradtke will have things to say about the last part.
    First, I am going to do this in reverse order--on the ISIL 
funding issue, that question actually probably would be best 
addressed to the Treasury Department. Under Secretary Cohen and 
Assistant Secretary Glaser are working very intensively in 
efforts to try to address the ISIL funding issue. DHS plays a 
small role in that in terms of criminal investigations about 
funding activities that go on.
    Ms. Ros-Lehtinen. Is there a specific threat to our 
servicemen and -women?
    Mr. Warrick. I am working backwards to that one.
    On that one, let me go back to what we said over the 
weekend. There were statements--public statements--by ISIL in 
September to the effect of calls for attacks against U.S. 
servicemembers, U.S. officials, and members of the intelligence 
community.
    We are not aware of any specific threat saying that, at a 
particular time, there would be an attack on a particular 
servicemember. But we really do want to be able to have members 
of the State and local law enforcement and members of the 
military community and their families take certain reasonable 
precautions to further reduce the risk of any types of events 
taking place.
    We are very mindful of the techniques of the use of social 
media that you described and that ISIL is able to use. And, 
obviously, they are able to survey social media as well as 
themselves.
    Ms. Ros-Lehtinen. Thank you.
    Ambassador, on the issue of our allies, are they fighting 
back this radical Islam ideology? And do you have any info 
about whether they are willing to put boots on the ground in 
Syria?
    Ambassador Bradtke. Well, we have a very close partnership 
with the countries in the Gulf. They are members of this 
coalition that I mentioned of 60 countries that General Allen 
has worked to put together.
    A number of them are carrying out air strikes in Iraq. So 
we are getting that kind of assistance from them. We are 
working very closely with them to cut off funding.
    I was in Kuwait and Qatar over the summer. Qatar has just 
passed a new law on private charities which will try to be more 
effective in regulating the flow of funding in cases where 
individuals have contributed money, thinking it was going to 
some humanitarian cause and was ending up going to a terrorist 
organization. So they are taking steps in that regard.
    They are also working with us on the counter-messaging 
front. There was just a conference in Kuwait that Under 
Secretary of State Stengel went to where we talked about what 
we are doing on counter-messaging, how we are working through 
the Center for Strategic Counterterrorism Communications.
    A number of our partners in the Gulf are interested in 
setting up similar operations, perhaps, or having a regionally 
based counter-messaging operation. So, again, we have a very 
close partnership with them.
    Ms. Ros-Lehtinen. Thank you. My time is up.
    But is the graffiti that we have seen in DC and other 
cities--are those legitimate or do you think that they are not?
    Mr. Warrick. That would actually be a question that I think 
would be better addressed by either the FBI or domestic law 
enforcement. They would be able to help you with that.
    Mr. Poe. Chair recognizes the gentleman from Florida, Mr. 
Deutch, for 5 minutes.
    Mr. Deutch. Thank you, Mr. Chairman.
    Ambassador Bradtke, I would just like you to pick up where 
you left off on your discussion of counter-messaging, on the 
conference that just took place, on the Center that we have in 
place.
    Can you speak in a little more detail about the efforts 
that we are undertaking, our friends from around the world who 
are sharing those efforts with us, and how do we determine 
whether we are being successful? And is there any evidence at 
this point that we are?
    Ambassador Bradtke. Let me say, as someone who has worked 
for a long time in the State Department and the United States 
Government, I find the Center for Strategic Counterterrorism 
Communications a very interesting and really unique operation.
    It is an effort to push back in a very direct, very blunt, 
forthright way, putting out some very tough messages on the 
Internet, on social media.
    The kinds of themes that are used include putting on social 
media the atrocities that al-Qaeda and ISIL are carrying out so 
people can see the true nature of ISIL.
    They highlight the fact that the main victims of ISIL are 
Muslims so that the people understand that this is not a way of 
helping other Muslims, that, in fact, these organizations are 
killing other Muslims.
    They talk about what ISIL and other groups are doing to 
local populations, Sunni tribes, others. So, again, very 
powerful, very direct messages.
    Some of the numbers in the last period of time, perhaps the 
last 10 or 12 months--they have done 25 videos. They have put 
out more than 1,000 anti-ISIL posts or tweets.
    And the way that we have some sense this is having an 
impact--there are actually two ways. One, you get a number of 
hits on the sites, the number of followers to the CSCC's 
operations. The other way is the efforts by ISIL and these 
groups to take down the CSCC's sites through hacking.
    So they are obviously worried that our message is getting 
out. They are obviously worried enough that they actually want 
to take action to do something about it.
    Other countries have been very interested in what we are 
doing. We have had a number of countries, ranging from Belgium 
and France to some of our North African partners, who have come 
to visit the CSCC's operation here in Washington.
    As I said, we had this conference in Kuwait where our 
partners in the Gulf and other places are looking at whether 
they can do something similar.
    The European Union is interested in trying to get its own 
counter-messaging up and running. The EU is providing funding 
for the U.K., which has a counter-messaging program, to try to 
explain and share its experience with other EU member States.
    So, again, this whole area of counter-messaging is very 
active. My own sense is we can't know for sure whether some 
individual has seen something on our Web site and has said, 
``That is the true nature of ISIL and I won't go to Syria,'' 
but the fact that we get hits on the site, the fact that the 
site has been subject of hacking by these groups, indicates to 
me that there is some effectiveness here.
    Mr. Deutch. Can you share with us how many times the videos 
have been viewed, how many hits there have been either on the--
the posts, how many tweets have been viewed?
    Ambassador Bradtke. I would be happy to get that for the 
record so I have the latest information.
Written Response Received from the Honorable Robert Bradtke to Question 
      Asked During the Hearing by the Honorable Theodore E. Deutch
    The Center for Strategic Counterterrorism Communications' (CSCC) 
Arabic language videos were viewed 959,187 times from June 10 to 
December 5, 2014. Urdu videos were viewed 3,947 times and Somali videos 
26,676 times.* Combined numbers of tweets for the Arabic, Urdu, and 
Somali languages from January 1 to December 1, 2014 were 25,844 with a 
total reach of over 7.3 million.
    CSCC launched its pilot English Language Initiative (ELI) on 
Twitter in August, 2013 and began messaging on Facebook in August, 
2014. Twitter followers reached 19,100 from August 2013 to November 
2014. The number of followers for CSCC's English Facebook page rose to 
8,868 from August 2014 to November 2014. The English YouTube account, 
which launched in August 2014 rose to 2,840 followers in November, 
2014. There have been 3,150 tweets with total impressions of 12.2 
million, 315 Facebook posts with a total reach of 678,000, and 14 
YouTube videos with total views at 1,003,000.

    *These numbers do not include numbers for Vimeo accounts (access to 
those figures is a fee-based service).

    Mr. Deutch. Okay. And you said that the U.K. has a center. 
Is the work that we are doing meant strictly--who are we 
focusing on? And, clearly, I would imagine the message would be 
slightly different targeting an Australian audience than a 
Belgian audience or America.
    Ambassador Bradtke. And that is why we think it is 
important that other countries develop a capability. The CSCC 
is doing its efforts in three languages: Arabic, of course; 
Urdu, because of its messaging that goes beyond the Syrian-Iraq 
front; and then English as well.
    The English messaging is a more recent development. But, as 
you say, there are needs for others--for example French. We 
know the fighters in Belgium, France. And that is why we think 
it is important that other countries also develop this 
capability.
    Mr. Deutch. And in my remaining seconds, Mr. Warrick, this 
may be something that you will be able to respond to in your 
discussions with some of my colleagues. If not, if you could 
respond in writing after.
    Your testimony about the efforts by the Secretary to 
increase the use of preclearance at overseas airports, I would 
very much like to know what the plan is, what airports we have 
targeted, by when, and how many we have already put in place to 
date.
    Mr. Warrick. Thank you very much.
    Actually, that is a question we would prefer not to address 
in an open session. You will appreciate the sensitivity, not 
just in terms of discussions with foreign partners, but we have 
no intention of laying out a roadmap of where we are not 
because of what effect that might have on the thinking of our 
adversaries. But in a closed setting, we can get someone who 
can give you a great deal more information on that.
    Mr. Deutch. I was only following up on the countries 
identified in your testimony. But I look forward to discussing 
that in the appropriate setting.
    Mr. Warrick. Where we have it, it is obviously a public 
matter and people see our officers in their uniforms.
    Mr. Deutch. Thank you.
    I yield back.
    Mr. Poe. Chair recognize the gentleman from South Carolina, 
Mr. Wilson.
    Mr. Wilson. Thank you, Judge Poe.
    And thank you, Chairwoman Ros-Lehtinen, for this joint 
subcommittee hearing today. This is very important.
    Both of your testimonies have been very enlightening. But I 
am just very concerned. The American people need to know, as 
the President, I believe, is ignoring the jihadist threat, that 
ABC News, of all people, Monday night reported, ``The day 
before the U.S. launched its biggest air blitz against the 
terrorist group in Iraq and Syria in late September, ISIS 
spokesman Abu Mohammad al-Adnani called upon Muslims in the 
U.S. And Europe to attack members of the military.''
    The direct quote: ``Do not ask for anyone's advice and do 
not seek anyone's verdict. Kill the believer, whether he is a 
civilian or military, for they have the same ruling. Both of 
them are disbelievers. Both of them are considered to be waging 
war,'' Adnani said in an audio speech posted online on 
September the 21st.
    Mr. Warrick, what is your current threat assessment of an 
attack by a domestic jihadist or foreign fighters on the U.S. 
homeland?
    Mr. Warrick. Thank you very much.
    That statement was posted in social media by a foreign 
participant attributing it to Adnani, as you said.
    Obviously, he was not in the homeland when the statement 
was made, but he was intending that his message reach out to 
prospective sympathizers here in the United States.
    There are obviously a number of things that DHS tries to do 
to prevent people from becoming radicalized to violence. This 
is through the community efforts which I addressed in my 
testimony.
    In addition, there are other steps that other law 
enforcement organizations, like the FBI, do in terms of trying 
to track activity and where there are steps, especially toward 
foreign travel, that prospective sympathizers may make. Then 
this gets them on the radar screen of people at DHS.
    So there are a number of measures to address people who 
might be sympathetic to that kind of radicalizing to violence 
message.
    Mr. Wilson. Well, the grotesque nature of that statement, 
along with people carrying signs in English in, say, Tehran, 
``Death to Israel,'' ``Death to America''--the creed of Hamas 
the American people need to know, and that is that ``We value 
death more than you value life.''
    This is serious. I am just very concerned that the 
President is focused on other items, i.e., congressional 
campaigns, and has been missing the danger.
    Based on the bulletin that was issued by DHS and FBI 
regarding soldiers' online media accounts, what level of danger 
do you feel for our military and our military families?
    Mr. Warrick. Well, as I said, there is no specific credible 
threat targeting specific people in a specific place.
    But we do think that it is appropriate that people are 
prudent and that social media postings should not describe 
military operational activities, nor should they describe law 
enforcement activities or other measures.
    This is something that we just caution people in our own 
organization and, indeed, in our military, to be prudent in 
what they post on social media.
    But for people who take those reasonable steps, it is 
obviously very difficult for foreign fighters in Syria to get 
to the United States, and my Department is working to make it 
even harder for that to happen.
    So what we really do is encourage people to exercise 
reasonable prudence. And then, obviously, there is the support 
that we need from communities to help be on the alert for 
things that they may notice at a local level far before we in 
the Federal Government would ever see anything.
    Mr. Wilson. And with this warning by the FBI and Department 
of Homeland Security, are you aware of any steps that the 
Department of Defense has taken to alert, again, 
servicemembers, military families, veterans, to what threats 
may be?
    Mr. Warrick. The Department of Defense, we know, has 
guidance on that. But, obviously, I would leave it to them to 
describe their guidance to servicemembers about social media 
postings.
    We just felt it was prudent for us to remind people that 
this is a time in which they should be prudent in measures 
about any activities or postings they may have.
    But the Department of Defense has a number of procedures 
and rulings that are in place and, obviously, you can get that 
information from them.
    Mr. Wilson. Thank you very much.
    Mr. Poe. Chair recognizes the gentleman from Virginia, Mr. 
Connally, for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman.
    Ambassador Bradtke, I was looking at your long and 
distinguished record of service to your country and the State 
Department. But allow me, without being disrespectful, to 
follow up on Mr. Sherman's question.
    Do you speak Arabic?
    Ambassador Bradtke. I do not speak Arabic.
    Mr. Connolly. Do you have any expertise in the Arab world? 
Did you ever serve in the Arab world?
    Ambassador Bradtke. I don't consider that to be a primary 
area of expertise, but I have traveled with Secretary 
Christopher extensively when he was negotiating----
    Mr. Connolly. But you were never assigned to the region?
    Ambassador Bradtke. No. I was not assigned to the region.
    Mr. Connolly. So is it not true that most of the foreign 
fighters recruited by or attracted to ISIL in Syria come 
roughly from a handful of countries, mostly Arab countries? Is 
that not true?
    Ambassador Bradtke. Many of the foreign fighters come from 
North Africa, from Arab countries. That is correct.
    Mr. Connolly. It just--I mean, maybe you do or don't 
subscribe to, I think, the premise behind Mr. Sherman's 
question.
    But as the United States moves forward, it just seems to me 
that the State Department needs to be promoting leadership from 
within that has particular focus on this region, since that is 
what we are dealing with.
    And I mean that with no disrespect. Because sometimes 
somebody can function very well without any expertise in a 
particular subject matter because of their managerial skills, 
their organizational skills. Presumably, that is true about 
you.
    But I do think that Mr. Sherman has a point, that longer 
term, the United States has got to get serious about this 
region and expertise in this region if we're going to address 
the challenges we face.
    Let me ask a question. In looking at your seven point, you 
know, here is what we are doing, I didn't see a mention of 
strengthening our relationship with the Peshmerga and to the 
Kurdish community, which seems to be one of the military allies 
we have got in the region and has a military capacity but needs 
to be reinforced. Why not? Why didn't you talk about that?
    Ambassador Bradtke. If you will permit me, Mr. Connally, I 
do feel I want to say a word or two that your----
    Mr. Connolly. I have to ask you to move closer to the mic. 
It is very hard to hear you. Thank you.
    Ambassador Bradtke. I would like to say a word or two about 
your initial comments.
    I was happily retired, Mr. Connally.
    Mr. Connolly. I saw that.
    Ambassador Bradtke. And was asked by senior officials in 
the State Department to come back and take this job.
    I was asked to take this job not because of my expertise in 
Arabic or countries of the Middle East. I was asked to take 
this job because there was a belief that in 40 years of working 
for the State Department I was able to deal with a the wide 
variety of countries, that I could conduct dialogues with those 
countries on an effective basis, and that I could draw on the 
many experts in the State Department who are experts on those 
parts of the world.
    This is not an effort I undertake by myself. This is an 
effort that I have the support of many people within the 
Department of State. I have found as I have traveled--I have 
been in Morocco, Tunisia, the UAE, Qatar, Kuwait--that I don't 
think the fact that I don't speak Arabic has been a hindrance.
    I have had meetings with the leaders of the Islamic 
community in countries I have visited. The fact that I am not 
an expert on the Islam has not prevented, for example, when I 
met the leader of the Islamic community in Malaysia, I had a 
very good discussion with him about steps they can take to put 
out the word about ISIL, about ISIL's not being representative 
of Islamic values.
    I don't feel that the discussion I had with him was in any 
way hindered by the fact I am not an Islamic----
    Mr. Connolly. Mr. Ambassador, I completely agree. That is 
why I really meant what I said without disrespect. I honor your 
career and I know you came back.
    But I think Mr. Sherman has a point long-term.
    This region is unraveling. It is a long-term challenge if 
not threat to us and to the West. It is profoundly disturbing, 
what is happening. We have to have expertise in the region. 
That is not a comment about you.
    Ambassador Bradtke. No. There is no disagreement. I believe 
there are some really brilliant new generation diplomats.
    Mr. Connolly. Good. And I----
    Ambassador Bradtke [continuing]. Who are coming up thorough 
the ranks, who are serving in some of our Embassies now.
    Mr. Connolly. I repeat, I honor you for your service. I 
meant no disrespect at all. I was just simply trying to 
reinforce this point. Now I beg you to address the Kurdish 
question because we are running out of time.
    Ambassador Bradtke. The reason I didn't get more deeply 
into that is that it is not really in my area of partner 
engagement on Syria foreign fighters. It is one of the lines of 
effort that General Allen is pursuing. I mentioned the five 
lines. One of those lines is support for our partners on the 
ground and that absolutely applies to the Kurds.
    Mr. Connolly. I would hope if we have another round we can 
get into sort of what has worked. Because I am troubled 
sometimes by some of the conversation we are having about, 
okay, when they return to a given country, what do we do? It 
almost sounds like deprogramming from a cult. I don't think 
that is going to work, given the numbers. So I would be 
interested in hearing from both of our witnesses about, well, 
are there examples of things that have worked in, A, preventing 
people from going, and, unfortunately, if we fail on that, 
helping to reintegrate them in a genuine successful way when 
and if they come back.
    Thank you, Mr. Chairman. I know my time is up.
    Mr.Poe. Chair recognizes the gentleman from California, 
Colonel Cook.
    Mr. Cook. Thank you, Mr. Chair.
    Ambassador, I wanted to ask you about the role of Hamas and 
the Muslim Brotherhood in terms of perhaps facilitating the 
information on people, recruitment, in some of the smuggling 
activities, or if you had any insight at all from a diplomatic 
standpoint.
    Ambassador Bradtke. Specifically, I do not, sir, no.
    Mr. Cook. No personal feelings on that terms in enabling 
them?
    Ambassador Bradtke. I don't have any basis on which to give 
you a good answer, sir.
    Mr. Cook. Let me switch gears a little bit.
    Chairman Poe was talking about the relationship with 
Turkey. And I think a number of us on this committee and the 
House Armed Services Committee are very, very nervous about 
Turkey and its reluctance to have strike aircraft be flown from 
Incirlik. And the other base that we have is obviously in 
Qatar. And it is almost like we are giving them a free pass, 
those two countries there, that--we are very, very nervous 
about there maybe have been activities in supporting ISIS and 
some of the other terrorist groups.
    Do you have any comments at all about the Turkish situation 
in terms of being somewhat of a squishy ally, at least in my 
opinion? A member of NATO and everything else and yet I just 
don't trust them.
    Ambassador Bradtke. As I said earlier, I think Turkey is a 
very important partner of ours. It is a member of the 
coalition.
    Mr. Cook. Have we given them a free pass on this, though?
    Ambassador Bradtke. We just had Vice President Biden in 
Turkey. General Allen has visited. He have had an ongoing 
discussion with Turkey about what we can do on the border 
between Turkey and Syria. Those discussions are going on. At 
this point, that is as much as I could say, sir.
    Mr. Cook. I understand that. But every time the question 
comes up of smuggling and black market activities and who its 
buying the oil and everything, a couple of countries come up. 
It is like they get a free pass. And sooner or later we are 
going to have to--is there anybody that is reevaluating who our 
true allies are and who aren't?
    It is almost like it is the military Stockholm Syndrome, 
because we have two bases in those key countries. We don't 
pressure them. That is basically what I am asking. Are they 
getting a bit of a free pass on this?
    Ambassador Bradtke. I would not say they are getting a free 
pass.
    Mr. Cook. Okay.
    Ambassador Bradtke. We have a very strong and open dialogue 
with them. And that those discussions about what you were 
talking about, those discussions continue, and we'll have to 
see where that goes.
    Mr. Cook. Okay. We talked about a lot of these foreign 
fighters coming through Turkey. How about through some of the 
another areas? Turkey is one area. Do they also come through--
and I notice there is a large preponderance of the group from 
Jordan. Are these primarily from the refugee camps? Is that 
where they are being recruited?
    Ambassador Bradtke. The numbers of foreign fighters coming 
from other countries are much smaller than Turkey. Turkey is 
the primary transit point. Iraq, Jordan, Lebanon have lesser 
numbers. Obviously, in the case of Iraq and Jordan, their are 
efforts to curb the flow of foreign fighters. Lebanon as well, 
although that is somewhat more difficult situation. Goes beyond 
what I could talk about in this session as well.
    Mr. Cook. The last question I had was in regards to the 
ones coming from Russia. And I suspect this relates to the 
Chechnya?
    Is Russia facilitating their leaving the country and going 
to another area simply because of the problems that they are 
going to cause internally in Russia?
    Ambassador Bradtke. I am not aware of any evidence they are 
facilitating the Chechen fighters to leave Russia to get rid of 
them, as you just said.
    Mr. Cook. Thank you very much. I yield back.
    Mr. Poe. Thank the gentleman.
    The Chair recognizes the gentleman from New York, Mr. 
Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    I think we need to forget for a moment from where these 
foreign fighters are coming and really ask the fundamental 
question which we are not asking, and that is why they are 
coming. ISIS' most potent recruitment tool is momentum. It is 
success. It is the conquest of territory covering large 
portions of Syria and Iraq.
    ISIS' ability to sustain their momentum in their 
territorial conquests will determine their future recruitment 
from the region and from the West.
    Why has ISIS been so effective in their territorial taking 
strategy? Because there has been no effective countervailing 
force to confront them. You know, the United States spent $25 
billion, $26 billion building up an Iraqi Army, and during the 
first test, the Iraqi Army ran. Not only did we not put up a 
front to ISIS, they also took our weaponry that we paid for 
over many, many years.
    So the New York Times reported this morning that there was 
a major deal between the Abadi government in Baghdad and the 
Kurdish leadership Erbil. That was a permanent, long-term deal 
to provide 17 percent of the national budget to the Kurdish 
region.
    In addition, $1 billion to pay for the salaries and weapons 
for the Peshmerga in the Kurdistan area.
    The Kurdish Army, or the Peshmerga, otherwise known as 
those who confront death, is estimated to be between 250,000 
and 357,000 fighters. They are experienced, they are an 
effective army, they are pluralistic. They are proven allies of 
the United States in assisting us in the invasion of Iraq, they 
fought side by side with the American troops, they helped the 
United States capture Saddam Hussein.
    ISIS is estimated to be between 31,000 and 41,000 fighters. 
This seems to be a major change in the dynamic as it relates to 
Iraq's ability to push back ISIS. I don't know if you caught 
the news of this deal this morning. But, I would like you to 
comment on it. Because I think unless and until you can break 
the momentum of ISIS, it doesn't matter where foreign fighters 
are coming from. The fact that they are coming is what is more 
important. And the success, the momentum that has been 
sustained by ISIS over a long period of time, is the only 
reason you have foreign fighters coming to Iraq and to Syria to 
fight, regardless of where they are coming from.
    So I think this is a major breakthrough. And I would like 
to hear your comments on how this changes the dynamic in the 
region.
    Ambassador Bradtke. That question would take me well beyond 
my responsibilities, Mr. Higgins. I think it is better 
addressed to my colleagues in our Near Eastern Bureau, who are 
the experts on these areas. I gather there will be a subsequent 
hearing where they will testify. Again, I am not the expert on 
the Kurds, I am not the expert on the Iraq situation.
Written Response Received from the Honorable Robert Bradtke to Question 
        Asked During the Hearing by the Honorable Brian Higgins
    Regarding ISIL's momentum in Iraq, the military campaign against 
ISIL, which is centered on degrading ISIL from the air and defeating 
ISIL by working with ground forces to clear and hold territory, has 
halted the main ISIL offensive. Precision airstrikes by Coalition 
partners (the United States, Australia, Belgium, Canada, Denmark, 
France, The Netherlands, and the United Kingdom) have helped Iraqi 
central government and Kurdish forces hold or take back key terrain, 
and degraded ISIL's ability to mass and maneuver. The Coalition has 
also killed a number of ISIL's top leaders, and those who remain on the 
battlefield can no longer easily communicate with ISIL formations and 
combat units. In Mosul, ISIL's stronghold in northern Iraq, ISIL has 
disabled mobile phone towers to prevent Mosul residents from providing 
intelligence to Coalition forces and organizing attacks, but that has 
further degraded its own communications.
    Thus far, combined operations have restored strategic sites like 
the Mosul Dam and Baiji Refinery to state control, held off ISIL 
offensives in Anbar province, strengthened the defensive corridor 
around Baghdad, and secured major roadways and supply routes. There is 
hard fighting ahead, and ISIL sometimes responds with localized 
offensives and atrocities, but ISIL is now being rolled back.

    Ambassador Bradtke. But I want to come back to the point 
you make. Yes. Clearly, the perceived success of ISIS is one 
reason that some people have been attracted to fight for them. 
But the situation in Syria itself has been a powerful magnet 
for----
    Mr. Higgins. But what does ISIS depict on social media? 
Their success in taking over critical territory.
    So if you forget about the medium, if you take away the 
fundamental recruitment, the emphasis, the success of ISIS, 
they don't really have a story to tell because a lot of this is 
about the narrative.
    I interrupted. Continue.
    Ambassador Bradtke. I was agreeing with you that that is 
one very important element and why people are attracted to 
fight for ISIS.
    But there are other factors as well. There is the 
situationin Syria itself. Where ISIS, al-Nusra, have made very 
powerful use of the idea that they are defending Sunnis inside 
Syria. Again, that is something we try to push back again.
    Also there are other factors ranging from the idea in some 
cases of economics. I have been in countries where the fighters 
from those countries, the primary motivation is actually the 
idea that they can escape situations----
    Mr. Higgins. I understand. Let me claim back my time. 
Respectfully, Ambassador. Let me just--because it is a very, 
very important point that I think is being missed. And that is 
combating, confronting effectively ISIS in Iraq helps us and 
the Free Syrian Army more effectively confront ISIS in Syria.
    Ambassador Bradtke. I don't think there is any disagreement 
on that point, sir.
    Mr. Higgins. I yield back.
    Mr.Poe. Chair recognizes the gentleman from Florida, Mr. 
DeSantis, for 5 minutes.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Ambassador, has the State Department canceled the passports 
of any of U.S. citizens who have joined terrorist groups in 
Syria and Iraq?
    Ambassador Bradtke. To my knowledge, the State Department 
has not canceled any passports of----
    Mr. DeSantis. Why is that? Because we had Secretary Kerry 
here a couple months ago. He said he has the authority under 
exiting law. I think he is right about that. I know some of our 
allies have taken steps to cancel passports.
    So what is the reasoning behind not doing that?
    I ask that because the director of the FBI was on ``60 
Minutes'' several weeks ago, maybe a couple months ago by now. 
He was asked about people that he have identified as joining 
ISIS or joining the al-Nusra front, and could they come back to 
the United States, he was asked.
    He said, Well, if they have a valid passport, they are 
entitled to return.
    A lot of my constituents were really floored by that. They 
would say, you go and you choose jihad, you leave America 
behind, you are waging jihad over there. The idea that you now 
have an entitlement to come back simply because you have a 
valid passport, and we are not going to really do much. I guess 
he said we would track them. But that struck me and a lot of my 
constituents as insufficient. So how does the State Department 
handle this issue?
    Ambassador Bradtke. You are correct, sir, Secretary Kerry 
said he does have the authority to revoke passports.
    This is something we would only do in relatively rare and 
unique circumstances because of the importance for average 
Americans of the freedom to travel. We would only----
    Mr. DeSantis. And obviously an ISIS fighter would be an 
extreme circumstance if they are cutting off Americans' heads. 
So I just wanted to make sure----
    Ambassador Bradtke. May I continue, sir? We would only do 
it also in consultations with law enforcement authorities. We 
have not yet had any request from law enforcement authorities 
to cancel passports of ISIS or foreign fighters.
    So, again, we have the authority. It is one tool. We do 
have other tools to use as well until this regard.
    Mr. DeSantis. No, I understand.
    Ambassador Bradtke. We would only do it in consultation 
with law enforcement.
    Mr. DeSantis. Mr. Warrick, maybe you can--so if a known 
terrorist comes back to the United States, they are being 
``tracked by law enforcement,'' what does that entail? How can 
we be sure that they will not commit a lone-wolf attack, for 
example?
    Mr. Warrick. Congressman, if we have indications that 
someone on the No-Fly List is trying to fly back to the United 
States, we would deny them boarding if we have the authority to 
do so. Or we would recommend even to a foreign government that 
they or the airline deny such a person the right to get on an 
airplane to fly to the United States.
    If someone shows up in the United States, and there is 
indications that that person has been a foreign fighter in 
Syria, it would be referred to the FBI. Then it would be a 
matter for law enforcement.
    We would have the ability at the border to ask any 
questions that were necessary and appropriate. We would have 
the ability and the authority to inspect their luggage, inspect 
their personal possessions in order to determine whether they 
were or were not a foreign fighter who had been fighting with 
ISIL in Syria.
    Anything like this, I can assure you, is taken extremely 
seriously. The notion that we are going to let somebody into 
the United States who is a foreign fighter just to have them 
monitored, sir, that is not what we are going to be working on.
    Mr. DeSantis. Well, I think his comments, maybe he didn't 
express himself well. But I think that was not----
    What happened with Munir Mohammed Abou Saleha? He was a 
U.S. citizen from Florida. He went over, trained with al-Nusra 
Front in Syria. Then, according to the New York Times, came 
back to the United States for a time period and then chose to 
return to Syria. And he committed a suicide attack in Syria. We 
didn't have any intelligence on him. Is that how he was able to 
do that? To go over, train with al-Nusra, then come back here 
to the United States unimpeded?
    Mr. Warrick. The intelligence that he had been fighting 
with ISIL was only developed after he had departed. And 
certainly, obviously, you know, it is unfortunate he choose the 
path that he did. Had he come back into the United States, 
there would have been measures taken in his specific case based 
on the status that he had at the time we learned that he had 
joined ISIL.
    Mr. DeSantis. Ambassador, my final question is, a couple 
weeks ago it was reported in the Wall Street Journal that the 
President wrote a personal letter to the Ayatollah Khamenei in 
Iran stressing, according to the article, that there were some 
mutual interests between the United States and Iran with 
respect to fighting ISIS in Iraq.
    As somebody who has served in Iraq and saw, you know, Iran 
and Iranian-backed terrorist groups, I mean, they killed 
hundreds of U.S. service members. So that was something that I 
flinched at.
    But let me ask you: Do we consider the Iranians to be a 
partner of any sort in terms of fighting ISIS, even if just in 
the Baghdad area or throughout in the region?
    Ambassador Bradtke. I can say from my point of view I 
certainly do not consider Iranians to be partners in the 
efforts that we are undertaking.
    Mr. DeSantis. Thank you. I yield back.
    Mr. Poe. Chair recognizes the gentleman from Rhode Island, 
Mr. Cicilline, for 5 minutes.
    Mr. Cicilline. Thank you, Mr. Chairman. And thank you to 
the witnesses.
    Ambassador, could you talk for a moment about what the 
impact is of foreign fighters, how they are being used? Are 
they engaged in actual military conflict? In suicide bombings? 
Or are they being used in propaganda videos? What is actually 
the impact of the foreign fighters and what is the magnitude of 
the presence of those fighters relative to the indigenous 
people?
    Ambassador Bradtke. Again, some of this is information that 
probably could be better shared in a classified setting. But 
let me share what I can here, my overall impressions from the 
work that I have been doing.
    Some of this is drawn from the work that academic experts 
are doing, some of it is drawn from the analysis that comes 
from inside the U.S. Government.
    The first distinction I would make is that ISIL has been 
more willing to take on foreign fighters. Al-Nusra, which is 
the al-Qaeda affiliate, has been somewhat less willing, been 
more selective, more careful about the foreign fighters that it 
has brought on. So you have first that distinction.
    The foreign fighters have been used in variety of ways. 
Some of them have--and this is a little bit different than the 
foreign fighters in the case of Afghanistan and Iraq.
    Very typically, in those two conflicts, the primary use for 
foreign fighters was as suicide bombers. I think now there a 
perception, although some are used as suicide bombers, that 
they are more valuable, that they may have skills that can be 
used, whether it is skills that involve social media, whether 
it is skills involving the repair and maintenance of equipment, 
whether it is medical or other skills. I think they are being 
put to use in those areas as well as being used as fighters 
themselves. And I am talking here about ISIL.
    The other very disturbing thing that we have seen, and 
academics have--a man named Peter Neumann, who has done some 
very good analysis of foreign fighters, has concluded that 
foreign fighters are often used for some of the most 
distasteful, if that is the right word, things that ISIL is 
doing. If you noticed, for example, the beheadings, these are 
apparently being carried out by someone with a British accent, 
a U.K. person.
    The analysis that Peter Neumann has of this is that because 
foreign fighters come to Syria, they have no real attachments, 
they don't speak Arabic, they are anxious to impress ISIL, they 
are anxious to impress the organizations, and they are willing 
to do things that the local recruits will not do. So we have 
seen that. Which I think is a very disturbing thing about the 
foreign fighters.
    Mr. Cicilline. Thank you. I know some prior colleague 
referenced U.N. Resolution 2178.
    There was not only creation of a new policy, but there was 
a set of protocols and a framework that was created as a result 
of that.
    Is that a successful and useful tool? What is the status of 
that? I mean, that imposes an obligation on countries to 
undertake serious efforts to prevent the ability of foreign 
fighters to transit. So what is the current status of that?
    Ambassador Bradtke. As I was saying earlier, 2178 is a 
legally binding resolution which requires countries to 
criminalize a variety of activities related to foreign 
fighters, including ones that they perhaps had not previously 
criminalized.
    I have just come back from Indonesia, where their 
counterterrorism law criminalized domestic terrorists because 
they never had a problem with people carrying out terrorist 
attacks outside of Indonesia. They are now looking at how to 
change that law to deal with terrorists who might go to 
training camps outside of Indonesia.
    So countries are very much looking at that resolution and 
trying to see where the gaps in their own legislation are.
    Mr. Cicilline. And I think it would be useful for us to 
have a sense of where countries are in meeting those 
obligations. So maybe you could follow up with the committee on 
that.
    Ambassador Bradtke. I have already committed to doing that, 
and I would be happy to do it.
    Mr. Cicilline. Thank you. Finally, I want to turn to 
Turkey. I know you have said that they are not complicit, 
though I think it is pretty clear that they have not been an 
enthusiastic, wonderful, reliable partner in this effort. I 
mean, just last week there were several foreign fighters who 
traveled through Turkey.
    So are they, in fact, assisting us both in sharing 
intelligence, in counterterrorism efforts to really stop the 
flow of foreign fighters? You keep saying they are an important 
partner. I think we recognize they have value if they act the 
right way. But there are real questions, I think, about what 
they are actually doing on the ground with us.
    Ambassador Bradtke. Again, if you want a detailed analysis 
of exactly what our cooperation with Turkey is, you probably 
need to do that in a classified session. But I would say the 
following: We have seen increasing steps by Turkey to cut off 
the flow of oil, to stop the flow of foreign fighters, to get 
better control of their border. And the information sharing we 
have with the Turks has been improved.
    Mr. Cicilline. Thank you. I yield back, Mr. Chairman.
    Mr.Poe. Chair recognizes the gentleman from Illinois, Mr. 
Kinzinger, for 5 minutes.
    Mr. Kinzinger. Thank you, Mr. Chairman. Thank you again for 
putting this together and thank you to the witnesses, thank you 
for being here. I appreciate it.
    Let me just ask, ask you both if you can just--or whoever 
is better advised to answer this. I wasn't here for part of the 
hearing; I am sure you guys explained it. But just to explain 
to me briefly, very briefly, what is our policy in Syria? What 
are we doing there?
    Ambassador Bradtke. Again, I am not here as the 
administration spokesman on our----
    Mr. Kinzinger. Well, you are kind of the administration guy 
right now in front of me. And it says you are the partner 
engagement on Syria foreign fighters.
    Ambassador Bradtke. That is my area of responsibility. 
Working with partners to deal with the foreign fighter problem. 
It is not to make or explain or articulate our entire Syria 
policy.
    Mr. Kinzinger. But you have been briefed on our policy in 
Syria, though. Otherwise, you are in a tremendous silo right 
now.
    Ambassador Bradtke. Our policy--and I will give you the 
one-sentence answer--is to bring about a political settlement 
which would provide the Syrian people an opportunity to have a 
democratic future without Assad in power.
    Mr. Kinzinger. Okay. I like the line. I mean, I do. I will 
point out that, in fact, during the discussion of the red line, 
the infamous red line 1 year ago, I was one of the vocal 
supporters of the need to enforce that red line. There was a 
lot of discussion about an offramp for Assad during that time 
period. You know, let's give him money and send him somewhere 
else. You know, let's get him out of government.
    It was the failure to enforce that red line that I have not 
heard articulated a single serious proposal to get Assad out of 
office now. I agree with you, I mean, I think toppling him by 
force is not the best answer. The best is a peaceful transition 
to maintain the state. But, it is what it is right now.
    So you do engage with FSA elements, am I right, in terms of 
being involved with foreign fighter?
    Ambassador Bradtke. I do not, no.
    Mr. Kinzinger. You have no engagement with them.
    Who in State does any of that? I mean, because, obviously, 
FSA would be a part of counter ISIS, if that is our strategy, 
would obviously have to be involved with the foreign fighters, 
and they would obviously be on the front line of why are these 
people are being recruited. So where does that connection 
happen? So if you are the foreign fighter guy, where is the----
    Ambassador Bradtke. My task, my responsibilities, the 
things that I have been asked to do are to pursue a diplomatic 
strategy with our foreign partners, our foreign countries on 
foreign fighters.
    So I do not engage directly with the Syrian opposition. 
Ambassador Rubinstein is our envoy for that. Certainly others 
in the State Department are dealing with this issue, others in 
the Pentagon in terms of military and our intelligence agencies 
also. But I personally do not deal with that.
    Mr. Kinzinger. So let me ask you this: Why is it that ISIS 
is attracting foreign fighters, versus foreign fighters coming 
to FSA, al-Nusra Front, those kinds of groups? What is it about 
ISIS that attracts? I mean, is it just the jihadism? What is it 
that you have seen?
    Ambassador Bradtke. I think it is partly the discussion I 
was having earlier. It is the perception that they were 
successful, perception that joining them is a way of trying to 
combat Assad. It is in some cases the way they have marketed, 
if that's the right word, themselves as being a place where you 
can come and you can be involved in this adventure. That is one 
of the perceptions.
    It is their declaration of a caliphate, which has attracted 
people who misunderstand exactly what ISIL is doing and what 
this means.
    So these are some of the factors that have caused ISIL to 
attract foreign fighters.
    Mr. Kinzinger. I agree with you. I mean, I think that is 
right. I think success brings success, right? I mean, I have 
seen some of the ISIS propaganda. And it is powerful. It looks 
like, if you are a young person, if you are in your teens and 
you are looking for something fun to do, they make it look fun, 
right? Come here and do whatever you want to do, be with a 
bunch of guys that are out pushing this idea of jihadism and 
the caliphate. You can see that.
    I think my concern--and you are not the guy to talk to 
about this, evidently--but my concern is the message that we 
have been sending for years about the Free Syrian Army is quite 
the opposite. These are the people that we actually want to be 
emboldened, these are the people we want to be part of a post-
Assad Syria.
    Instead, the message we send them, we have a lot of Members 
of Congress that question, that basically say they are no 
different than ISIS, which is actually offensive, if you have 
met any of these folks. Sure, anywhere on a battlefield, you 
are going to have allegiances switch.
    But the other thing is, if you are somebody looking to 
overthrow Assad, what is attracting you to the FSA? There is no 
no-fly zone over their territories as of yet. There has been a 
lot of talk that the United States is helping to train and 
equip, but you really haven't seen it. Now the discussion is in 
our new-found strategy that we may train a few thousand 
fighters over the next year. I mean, that would not attract 
anybody.
    So I agree with you on that. And I hope--I am not going to 
go past my time--but I hope that this administration really 
wrestles with the issue of Syria and understands you are not 
going to defeat ISIS until you take care of the Syria problem. 
It is the incubator of the problem.
    So with that, thank you for your testimony. And I yield 
back.
    Mr. Poe. Chair recognizes the gentleman from Florida, Mr. 
Grayson, for 5 minutes.
    Mr. Grayson. Thank you.
    Mr. Warrick, is joining ISIS a crime under U.S. law?
    Mr. Warrick. Certainly giving material support to ISIS is a 
violation of the Federal statutes, yes.
    Mr. Grayson. Is that true of both U.S. citizens and non-
U.S. citizens?
    Mr. Warrick. Well, I mean, the question of whether a 
foreign citizen violates foreign law----
    Mr. Grayson. No. U.S. law.
    Mr. Warrick. Oh, U.S. law. We have been known to prosecute 
foreign nationals who are in the United States for violation of 
material support statutes, yes.
    Mr. Grayson. So let's be specific about this. Let's talk, 
for instance, abut the 26 Irish residents or residents of 
Ireland who apparently have joined ISIS.
    What would happen if one of them traveled to the United 
States?
    Mr. Warrick. Well, I am not going to get into exact 
hypotheticals. I do want to say, however, that where somebody 
has been identified as a foreign fighter fighting for ISIL in 
Syria, and it is possible to watch-list such a person, they are 
going to be in all likelihood on a no-fly list or another list 
of the U.S. Government that is going to attract a great deal of 
attention before they are allowed to get on board an airplane 
to the United States.
    Mr. Grayson. Again, let's be as specific as we can. Tell 
us, regarding the no-fly list, what would that mean? They would 
never be able to many come to the United States, right?
    Mr. Warrick. Well, they wouldn't be able to fly here. The 
no-fly list obviously doesn't apply to other modes of 
transportation. However, I can assure you that there are equal 
or equivalent measures in place so that somebody on the no-fly 
list is almost certainly not going to be allowed entry into the 
United States if they come by cruise ship or if they fly to 
Canada, for example, which they may not be able to do if they 
are no-flied for us and they were to try, let's say, to come 
across the U.S. Canadian border.
    Mr. Grayson. What are the names of those lists?
    Mr. Warrick. I'm sorry?
    Mr. Grayson. What are the names of the lists that you are 
referring to, not the no-fly list, but the no-cross-the-border 
list.
    Mr. Warrick. Well, these are all systems managed by the 
Terror Screening Center, which is an arm of FBI but includes 
participation by DHS and others. DHS, however, has the 
authority to make admission decisions when someone presents him 
or herself at a border or at an airport. So we have the 
authority to refuse someone entry into the United States if 
they are deemed inadmissible.
    There are specific grounds in the Immigration and 
Nationality Act that allow us to say someone who is reasonably 
suspected to be a terrorist or to have given material support 
to terrorist groups that that person can be denied entry into 
the United States. I can assure you, Congressman, we exercise 
that authority when it's appropriate for us to do so.
    Mr. Grayson. So regardless of whether they're in a country 
that requires a visa or not for nationals of that country or 
the United States, they are simply not going to be let in. 
Right?
    Mr. Warrick. If they meet the standard of the Immigration 
and Nationality Act, we are going to comply with the law, I 
assure you.
    Mr. Grayson. By not letting them in; right?
    Mr. Warrick. There are a host of footnotes and exceptions 
that I am not going to go into in open session. But 
essentially, no, we are not going to do that.
    Mr. Grayson. Let's talk about the U.S. citizens, the ones 
with U.S. Passports, reputed to be 130 of them. What do we know 
about them? Do with we know their names, for instance.
    Mr. Warrick. You actually should ask that question to the 
FBI. But when they give numbers, which I would describe only as 
greater than 100, the numbers that you see on this chart are a 
private groups' estimates.
    So the FBI is the better source for actual statistics. In 
those cases what we are talking about are identities where the 
name of the person is known as well as certain other 
information that allows us to be reasonably precise as to who 
it is. We at least have in mind when a decision, for instance, 
on someone being on a no-fly list is made.
    Mr. Grayson. Or, for instance, when they come back. When 
they come back, if they are identified as a foreign fighter of 
ISIS, according to what you said earlier, they have committed a 
crime, and they can be arrested upon entry; correct?
    Mr. Warrick. That's correct.
    Mr. Grayson. And, in fact, that has happened; correct?
    Mr. Warrick. Yes, it has.
    Mr. Grayson. Then what happens after that? They are put in 
prison; right?
    Mr. Warrick. Well, first of all, they are referred to the 
FBI for further investigation and prosecution, that actually is 
outside of the DHS's purview and into the FBI's purview.
    So if you want to start tracking people from that point 
forward, I would refer you to the FBI and then to the 
Department of Justice.
    Mr. Grayson. But you are familiar with the procedures; 
right?
    Mr. Warrick. I am familiar with the procedures, yes.
    Mr. Grayson. You work with the FBI to get that done; right?
    Mr. Warrick. Yes, we work very closely with the FBI and 
with our partners in the intelligence community. State and 
local law enforcement.
    Mr. Grayson. So hearing all that, I guess we can sleep a 
little more soundly; right?
    Mr. Warrick. Well, sir, yes, you can. However, as we always 
tell everyone, prudence and vigilance is something that is the 
responsibility of all of us.
    Mr. Grayson. I yield back.
    Mr. Poe. Chair recognizes the gentleman from Pennsylvania, 
Mr. Perry.
    Mr. Perry. Thank you, Mr. Chairman. Thank you, gentlemen, 
for your time.
    Ambassador, a few months ago, taxpayers were asked to spend 
a couple hundred million dollars or several hundred million 
dollars for the training and I guess some equipping of FSA 
fighters.
    Can you give me and us any update, we are quickly 
approaching the time when that proviso was to expire. What has 
our investment gleaned us at this point?
    Ambassador Bradtke. Again, that is an area, and there was a 
previous line of questioning in the same direction. I am not 
the person who deals with the of Free Syrian Army or the Syrian 
opposition, so that is really beyond my responsibilities and my 
mandate at the State Department.
    Mr. Perry. All right. But that is unfortunate. It is very 
frustrating for us, right? You come here. We have questions 
that we have to respond to our constituents. Either you don't 
have or won't give the answers. So we just walk away with 
nothing. So it is very frustrating.
    You have no indication whatsoever, like you are not even 
aware where--I mean, you are aware that program is happening, 
and that is your complete knowledge of it? Like mine?
    Ambassador Bradtke. Again, I am not an authoritative 
spokesperson----
    Mr. Perry. What do you know? Do you know anything?
    Ambassador Bradtke. Congressman, I have testified here for 
the better part of 2 hours about what I am trying to do leading 
an effort to deal with foreign fighters, about our engagement 
with our partners, about the different approaches we are taking 
with those partners.
    Again, I am not responsible for our overall Syria policy or 
our relations with the Syrian opposition. My understanding is 
that you have a hearing scheduled in the reasonably near future 
with someone who will be able to address those issues. But if 
there are specific questions that you want addressed, I am 
confident that we will find someone at the State Department who 
can provide you----
    Mr. Perry. Listen, I can appreciate that you have got a 
long record of service. And thank you very much for that.
    But you must understand when you come to these things as a 
representative of the Department of State, you should have a 
modicum of information regarding many subjects, specifically 
the one that we are talking about. As a Member of Congress, 
when I go out to a town tall meeting, I can't say, well, look, 
I'm not involved with other appropriations; it's not my 
responsibility. I'll see you later. My constituents don't 
accept that. And with all due respect I don't feel like your 
answer is acceptable at this time.
    But with that having been said, if you can give me the 
unclassified version of a long-term--unclassified--of a long-
term strategy regarding a peaceful transition in Syria. Look, 
we have got a couple minutes here. Do the best you can. Give me 
the high points. I mean, Syria doesn't like us--or Turkey 
doesn't like Assad, so they are not helping us with ISIS. We 
don't like Assad or ISIS, but we picked ISIS as the more 
problematic one of the two at this time.
    But paint some picture of where we are going. Because we 
just spent $500 million for Free Syrian Army fighters which we 
can provide no answers on, and the American people are supposed 
to continue to support the administration in some policy, I am 
asking what the heck it is.
    Ambassador Bradtke. Congressman, I was asked to come up and 
testify, and the subject that the testimony was to be ISIS and 
the threat from foreign fighters. That is what I have tried to 
do to the best of my ability. I was not asked to be a witness 
on our broader Syria policy or to be prepared to discuss the 
future of Syria.
    I have said that the essentials of our policy are to try to 
have a political settlement inside Syria that enables the 
people of Syria to have a democratic future without Assad, that 
enables them to be else free from terrorist threats, from 
terrorist organizations as well.
    I really feel that if you want to delve more deeply into 
our Syria policy then someone who can be an authoritative 
spokesman on our policy on Syria should be asked to come and 
testify.
    Mr. Perry. I appreciate that. Those are great platitudes 
that all Americans can agree with and probably all people 
around the world can agree with.
    Let me ask you this, then: The Khorasan Group. Are you 
familiar? Can I ask questions about that.
    Ambassador Bradtke. I am familiar with the Khorasan Group. 
Some of the questions may involve classified answers, but I 
would be happy to try to answer your questions, sir.
    Mr. Perry. They are described as seasoned al-Qaeda 
operatives in Syria. Would you agree with that?
    Ambassador Bradtke. Yes, I would.
    Mr. Perry. So when al-Qaeda, seasoned al-Qaeda operatives.
    So when the President told us a couple years ago that--and 
I don't remember the exact verbiage, but it was something 
similar to, al-Qaeda is decimated and on the run.
    Would that comport with the success of the Khorasan Group 
in Syria? Or would that be counter-vening?
    Ambassador Bradtke. What I would say, sir, is that my 
understanding of what the President meant was al-Qaeda was an 
organization that had been severely damaged. That did not mean 
that all the individual elements of al-Qaeda had been defeated.
    We see al-Qaeda in the Mahgreb, we see al-Qaeda in the 
Arabian Peninsula. And this group of fighters who had gone to 
Syria coming in some respects from Pakistan and Afghanistan, 
from core al-Qaeda, have tried to create space to operate in 
Syrian territory.
    Mr. Perry. So could I say it was a little true and maybe a 
little deceptive, or untrue, or whatever you want to call it, 
it wasn't completely factual?
    Ambassador Bradtke. I don't share your view, Congressman.
    Mr. Poe. The Chair recognizes the gentleman from Illinois, 
Mr. Schneider.
    Mr. Schneider. Thank you, Mr. Chair. Again, I want to thank 
the witnesses for joining us today to specifically talk about 
the threat of foreign fighters going into Syria, vis-aa-vis 
ISIS. Looking at the numbers that were presented to us and the 
sources or locations of where many of the fighters are coming 
from of the 16,000, roughly 5,000 are coming from North Africa, 
as I mentioned earlier; about another 2,500 from Europe, 40 
percent of those from France. And then from the Gulf states, 
you have another 4,000 roughly.
    So my general question and I will ask you a couple of 
questions and leave you to answer--my general question is are 
there any common threads attracting these fighters from these 
different regions? Are there specific regional trends that draw 
those fighters and how do we with deal with that? Those are my 
general questions.
    And Ambassador, you mentioned Peter Neumann, who released a 
study in the spring and specifically identified Ahmad Jibril as 
a cleric, a Muslim cleric who has a large following, happens to 
be here in the United States. Not necessarily sending people to 
fight, but preaching a way that inspires those folks to fight. 
What are we doing specifically about folks like that, not just 
in the United States but globally, the specific concern of 
people preaching from the United States? With that I will leave 
it to the witnesses.
    Ambassador Bradtke. Just to address briefly your question 
about regional trends, there are differences. I think the one 
common theme is the attraction of foreign fighters to the 
conflict in Syria. The idea that Sunni Muslims are being 
attacked and need to be defended. This is a fairly common theme 
throughout the conversations I have had with our foreign 
partners as to the primary reason the foreign fighters are 
attracted to conflict. But there are variations on this 
statement. In the western Balkans, for example, I have had 
conversations with officials there who have pointed to the fact 
that the foreign fighters from their countries are coming from 
the poorest areas, and that foreign fighters from those 
countries are being told if you go to Syria you will get paid, 
you will have a job and status.
    The ideological, if you will, element is less important. I 
have talked to partners in Southeast Asia where, in some cases, 
the motivation seems more to go to get training, to get skills 
that can be brought back to the home country to potentially be 
used in terrorist activities in the home country. Again, not so 
much an ideological motivation. So there are regional 
variations to individual variations, but the most important, 
the most powerful motivation does seem to be the conflict in 
Syria, the attraction of the idea that we need to go defend our 
Muslim brothers, our Sunni Muslim brothers in Syria.
    Mr. Schneider. If I can, the large number coming from 
France, almost a 1,000 fighters from France, are those 
residents or citizens of France who have connections to Tunisia 
or Morocco or Libya, or are they disconnected?
    Ambassador Bradtke. Many of them are from North Africa 
originally, but many of them are second or third generation. 
These are not necessarily first generation immigrants. And that 
raises another kind of regional variation.
    Certainly the problem, the inability of some of our 
European partners to integrate their immigrant populations into 
their societies has left a degree of alienation that has made 
some of these people susceptible to the kind of propaganda that 
ISIL's putting out.
    There is also another element here, sir, which I think 
can't be totally neglected. I believe it is hard to come up 
with specific evidence of this, but there are some foreign 
fighters who are simply attracted to the violence that is 
taking place. There was a mention of Mr. Namosh, who was 
alleged to have committed these killings at the Jewish Museum 
in Brussels. This is a man with a very deep criminal 
background. And again, I think there is an element of that in 
some of the attraction of foreign fighters, it is the 
attraction to violence itself.
    Mr. Schneider. And as far as some of the preachers the 
study put out by Mr. Neumann and two others said that they 
specifically identified two preachers globally who were having 
a disproportionate influence on promoting fighters going into 
Syria.
    Ambassador Bradtke. I don't know whether my colleague wants 
to address that. The State Department does not do activities 
inside the United States of this nature. I am not really the 
right person to answer that question.
    Mr. Schneider. Mr. Warrick?
    Mr. Warrick. So I am not going to obviously address the 
specifics of any individual case, but I do want to make the 
point that in all the work that we do in community outreach, 
working with Federal, State, and local law enforcement, we are 
very mindful of the distinction between those who are 
exercising their free speech rights and those who are, to the 
contrary, urging people to carry out acts of violence. The 
former is a protected constitutional right and the latter is a 
crime.
    And we distinguish, in all that we do, carefully between 
those two characteristics. So I am not going to assess the 
statements of any individual religious leaders from the table 
here today, other than just to assure you that we are very 
mindful of the distinction and use that in all the work that we 
do.
    Mr. Schneider. With that I time is expired and I yield 
back.
    Mr. Poe. The Chair recognizes the gentleman from Georgia, 
Mr. Collins, for 5 minutes.
    Mr. Collins. Thank you, Mr. Chairman, I appreciate the 
time.
    I want to follow up, Ambassador, just on a couple of quick 
things, because I was unable to be here for the whole time, but 
I have watched the hearing, and on several times, you have 
basically, and even with my friend from Pennsylvania, sort of 
punted the issue of commenting on the administration's policy 
on Syria. To an extent, I understand that.
    I do have a question, because you are part of the policy of 
working with foreign fighters coming into Syria and how we deal 
with that, correct?
    Ambassador Bradtke. Correct.
    Mr. Collins. Do you understand the policy of the 
administration? I am not asking you to comment on it, I am just 
asking do you understand it?
    Ambassador Bradtke. Again, I am not the authority--do I 
understand what the main elements are? Yes, I think I do.
    Mr. Collins. Okay. I am not going to chase that last ``I 
think I do.'' Because this is an important part to me, I am not 
trying to pin you down, but punting the question like the 
gentleman from Pennsylvania said I think is a direct issue of 
what we are dealing with here, because there are a lot of folks 
just trying to understand our policy in Syria and what we are 
trying to do, and for someone like my friend who has served in 
Iraq and served in this region during wartime this is very much 
of a concern. If we don't understand the policy and you are 
trying to carry out a bigger part of that policy, to say that 
you do at least attempt to understand it is encouraging.
    My question is, if you understand it, what is your 
understanding of that policy? As short as you can be, what is 
your understand of the administration's policy?
    Ambassador Bradtke. The President has spoken of our policy; 
the Secretary of State, has spoken of our policy; Ambassador 
Ann Patterson who was the Assistant Secretary for the Near East 
and has spoken of our policy; Brett McGurk, her deputy, has 
spoken about the policy.
    Mr. Collins. With all due respect, I can read theirs. I 
want yours, because in a job description, you are given a job, 
you were there to carry out your part of the policy, correct?
    Okay, from your understanding of what the policy is on how 
we are to contain and how we are to fight and how to curb these 
fighters, because I have other questions on the violence 
aspect, which I tend to agree with you, I think they are just 
the soldier-of-fortune kind of attitude among some of these. 
They want to go, they get their experience and go.
    Do you have a clear enough understanding of the policy 
objectives inside of Syria and then the influences to carry out 
your function. And if so, what do you feel like your part of 
that policy is?
    Ambassador Bradtke. I think I do have enough of an 
understanding to carry out my role, sir, because as I 
understand the policy, that--again, I am not the spokesperson, 
it is to try to bring about a political settlement in Syria 
that will allow the Syrian people to have a Democratic future 
that will be a future without Assad. That is the core, the 
fundamental policy. That is the basis on which I try to do what 
I do, which is the idea that why we are trying to deal with 
this foreign fighter problem, there are bigger Syria pieces 
that are being dealt with by the Secretary, by the President, 
by Ambassador Patterson, Ambassador Rubinstein, who is 
responsible for our Syria policy.
    Mr. Collins. So you are actually dealing with what I think 
is part of the problem because there is basically a 3-prong 
kind of attack, however you want to look at it with the Assad 
regime, the fighters against Assad, and then you have the 
fighters against the fighters of Assad, and you have fighters 
coming in from all over to fight here. We did not address that. 
And I have read and listened to the President speak about this, 
we basically chose to leave the current regime sort of off the 
table when we are training free Syrian fighters to go after 
ISIS or ISIL, however you describe it, just the Islamic State. 
And we are saying we will deal with the Assad part of this 
later.
    I am trying to figure out what are you doing to curb 
outside fighters coming in on his behalf? Is that part of your 
policy? And if it is, that contradicts the policy of basically 
leaving him for another day.
    Ambassador Bradtke. It is--certainly, most of the efforts 
that I have talked about here today are related to Sunni 
foreign fighters. They are fighters who are going to fight for 
ISIL or al-Nusra, the Khorasan group, those groups. We are 
concerned about the other foreign fighters, if you will, that 
come into Syria. The Shi'a foreign fighters, the Hezbollah 
foreign fighters. The reality is we have fewer tools to deal 
with the fighters.
    Mr. Collins. Would you say that those fighters are in it 
more for the fight? You know we all grew up in neighborhoods, 
you just had one of those guys in class, they are just going to 
fight. And sometimes there is a reason and sometimes there is 
not a reason. Would that classify more on the fighters?
    Ambassador Bradtke. I would say it again without being the 
expert on the subject that I feel the fighters who have gone to 
fight on the side of Assad are different than the fighters who 
are coming from other countries to fight for ISIL or al-Nusra. 
It is a more organized effort a supported-by-outside-countries 
effort.
    Mr. Collins. Well, I appreciate your understanding because 
I do believe you have a difficult job and understanding the 
policy is important, at least your part whether you comment on 
the bigger part. I still think that we need to be arming those 
who want to fight, that is the Kurds. We need to get them 
involved in the fight and anybody else who wants join, you have 
a tough job, I commend you for doing it.
    Mr. Chairman, I yield back.
    Mr. Poe. The Chair recognizes the patient gentlewoman from 
Florida, Ms. Frankel, for 5 minutes.
    Ms. Frankel. Thank you, Mr. Chairman. I often feel like the 
Agatha Christie novel, And Then There Were None.
    Mr. Collins. I have been there many times.
    Ms. Frankel. Thank you very much gentlemen for being here. 
Well, this has been a very interesting discussion to listen to. 
And to me, it sounds like the problem is the problem, and I say 
that not to be facetious, but this sounds to me like one of 
these rock-and-a-hard place situations, not to be trite.
    I think some of the frustration you have heard is there is 
an old saying the knee bone is attached to the thigh bone and 
so forth, so it is difficult for us to hear a discussion just 
of the foreign fighters without an overall discussion of the 
strategy. So I will try, out of respect, to narrow my questions 
to the foreign fighters, and if I ask a question that deviates, 
you just have to say--I will respect your answer.
    So let's start with this proposition, we are to assume that 
these foreign fighters coming back to our country or to our 
allies pose an immediate present danger to our security, is 
that something we should assume?
    Mr. Warrick. Well, we certainly treat them as if they are a 
threat, if they have been a foreign fighter for ISIL, that is 
going to be taken with enormous seriousness. I think we do need 
to recognize that there is the possibility that some foreign 
fighters walked away from the fight because they decided that 
ISIL was not like it was advertised to be and its social media, 
which I would echo Secretary Johnson's characterization as 
slick, is totally at odds with the reality that people 
experience when they are actually fighting for ISIL. And so, 
undoubtedly there are people who are walking away from the 
fight----
    Ms. Frankel. I have other questions, could you just answer, 
is it an immediate threat? I am just trying to understand the 
seriousness of it.
    Mr. Warrick. The answer has to be some are and we are 
treating everyone that way until otherwise it can be 
established.
    Ms. Frankel. I want to get back to you, Ambassador. I think 
you said that these fighters that are coming from other 
countries, many of them are going to fight Assad, is that what 
you said?
    Ambassador Bradtke. I said I think that is one of the 
primary motivations.
    Ms. Frankel. So when we go after ISIL, air strikes let's 
say in Iraq, when we try to denigrate ISIL, we are, in a sense, 
helping Assad; is that correct?
    Ambassador Bradtke. I don't think we are helping Assad. I 
think Assad's problems go well beyond whatever we do with ISIL. 
And certainly, if he is taking some consolation in the fact 
that we are attacking aisle I think he is making a big mistake.
    Ms. Frankel. I am just trying to figure this out. If ISIL 
is coming in, the fighters are coming in to fight Assad, we are 
trying to denigrate ISIL, so do we encourage or incite more 
fighters to come in? I guess that is the question, are our 
actions, or our inactions, either our actions to go after ISIL 
inciting more fighters to come in, or our inaction to go after 
Assad, is that inciting more fighters to come in?
    Ambassador Bradtke. I am not sure I can give you a 
definitive answer here, because I can't point to specific 
evidence. It is hard for me to put myself in the head of a 
foreign fighter who sees air strikes being carried out.
    Ms. Frankel. Well, what about in terms of the advertising 
that they do to bring the fighters in? Do they use our actions 
or inactions?
    Ambassador Bradtke. We believe they are trying to use our 
actions as an incentive or as a motivation for people to come 
and fight, but I can't point to specific evidence at this stage 
particularly in this setting that says whether this is, in 
fact, happening or not.
    Ms. Frankel. Are most of the fighters coming in through 
Turkey?
    Ambassador Bradtke. Yes, Turkey is the primary----
    Ms. Frankel. And so it seems to me another countervailing 
issue here is Turkey is under deluge from Syrians who are 
fleeing Assad. And so, their resources are hurting badly. So it 
seems to me that they want somebody to be fighting Assad. So do 
you think that that is a factor in their not keeping the 
borders more secure?
    Ambassador Bradtke. Turkey has made no secret that one of 
the primary elements of its policy is to see Assad go, but at 
the same time, I think Turkey also understands the threat that 
ISIL, in particular, poses to Turkey. We had an incident back 
in March where some ISIL fighters crossed over into Turkey and 
engaged a shootout with Turkish policemen, killing Turkish 
policemen.
    We had ISIL kidnapping and holding hostage Turkish 
diplomats in Mosul, and Turkish truck drivers in Mosul. We had 
a case in October where Turkey broke up an ISIL group inside 
Turkey that had gathered weapons and explosives. So again, I 
think yes, Turkey wants Assad to go, that is certainly a key 
element of its policy, but I think at the same time, they 
recognize that ISIL is also a threat to Turkey itself.
    Ms. Frankel. Thank is you, Mr. Chair. I yield back.
    Mr. Poe. You yield back all the time.
    Thank you very much. I want to thank the gentlemen for 
being here for this hearing. This hearing of the joint 
subcommittees is concluded. Thank you.
    [Whereupon, at 12:26 p.m., the subcommittees were 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
